CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT.

ON PETITION FOR WRIT OF CERTIORARI TO
THE FLORIDA SUPREME COURT

APPENDIX

JULIE A. MORLEY
Counsel of Record
JAMES L. DRISCOLL
TRACY M. HENRY
LAW OFFICE OF THE CAPITAL COLLATERAL REGIONAL COUNSEL
MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813) 558-1600
FAX NO. (813) 558-1601
Email: morley@ccmr.state.fl.us

INDEX OF APPENDICES
Appendix A: The unreported opinion of the Circuit Court in and for Duval County
denying Successive Motion for Postconviction under Florida Rule of Criminal
Procedure 3.851, issued January 7, 2019.
Appendix B: The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 293 So. 3d 448 (Fla. 2020).
Appendix C: Order denying rehearing SC19-195, 2020 WL 1921623 (Fla. 2020),
issued April 21, 2020.
Appendix D. The opinion of the Supreme Court of Florida affirming the judgment and
sentence, reported at Sweet v. State, 624 So. 2d 1138 (Fla. 1993).
Appendix E. The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 810 So. 3d 854 (Fla. 2002).
Appendix F. The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 248 So. 3d 1060 (Fla. 2018).

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix A: The unreported opinion of the Circuit Court in and for Duval County
denying Successive Motion for Postconviction under Florida Rule of Criminal
Procedure 3.851, issued January 7, 2019.

Filing # 82966658 E-Filed 01/07/2019 04:32:19 PM

IN THE CIRCUIT COURT, FOURTH
JUDICIAL CIRCUIT, IN AND FOR
DUVAL COUNTY, FLORIDA
CASE NO.: 16-1991-CF-02899-AXXX-MA
DIVISION: CR-C
STATE OF FLORIDA
v.
WILLIAM E. SWEET,
Defendant.
________________________/
ORDER DENYING DEFENDANT’S EIGHTH SUCCESSIVE
MOTION FOR POSTCONVICTION RELIEF
This matter came before the Court on “Defendant’s Eighth Successive Motion to Vacate
Judgments of Conviction and Sentence” (“Motion”) pursuant to Florida Rule of Criminal
Procedure 3.851, filed on April 24, 2018. The State filed its answer to Defendant’s Motion on
August 30, 2018.

On December 11, 2018, a Case Management Conference was held on

Defendant’s Motion.
In his Motion, Defendant claims that: (1) postconviction counsel was ineffective for
failing to file a claim of ineffective assistance of trial counsel based upon trial counsel’s alleged
substance abuse; (2) postconviction counsel was ineffective for failing to file a Giglio claim
based on Solomon Hansbury’s recantation; (3) the State violated Brady when it failed to turnover
additional records suggesting Eric Wilridge was not incarcerated at the time of the offenses; and
(4) Defendant’s sentence of death is unconstitutional because he is innocent of the offenses.

PROCEDURAL HISTORY
After a jury trial, Defendant was convicted of one count of First-Degree Murder, three
counts of Attempted First-Degree Murder and one count of Burglary. A jury recommended a
sentence of death by a vote of ten-two, and the Court sentenced Defendant to death on August
30, 1991. The judgement and sentence were affirmed by the Florida Supreme Court on August
5, 1993. Sweet v. State, 624 So. 2d 1138 (Fla. 1993).
The relevant facts concerning the offenses Defendant was convicted and sentenced on are
recited in the Florida Supreme Court’s opinion in the direct appeal:
On June 6, 1990, Marcine Cofer was attacked in her apartment and beaten and
robbed by three men. She could identify two of the men by their street names. On
June 26, 1990, she was taken by Detective Robinson to the police station to look
at pictures to attempt to identify the third assailant. When Robinson dropped
Cofer off at her apartment, William Sweet was standing nearby and saw her leave
the detective. Unknown to Cofer, Sweet had previously implicated himself in the
robbery by telling a friend that he had committed the robbery or that he had
ordered it done. Cofer asked her next-door neighbor, Mattie Bryant, to allow the
neighbor's daughters, Felicia, thirteen, and Sharon, twelve, to stay with Cofer in
her apartment that night. Mattie agreed, and the children went over to Cofer's
apartment around 8 p.m.
At approximately 1 a.m. that evening, Sharon was watching television in the
living room of Cofer's apartment when she heard a loud kick on the apartment
door. She reported this to Cofer, who was sleeping in the bedroom, but because
the person had apparently left, Cofer told Sharon not to worry about it and went
back to sleep. Shortly thereafter, Sharon saw someone pulling on the living room
screen. She awakened Cofer. The two then went to the door of the apartment,
looked out the peephole, and saw Sweet standing outside. Sweet called Cofer by
name and ordered her to open the door.
At Cofer's direction, Felicia pounded on the bathroom wall to get Mattie's
attention in the apartment next door, and a few minutes later Mattie came over.
The four then lined up at the door, with Cofer standing in the back of the group.
When they opened the door to leave, Sweet got his foot in the door and forced his
way into the apartment. Sweet's face was partially covered by a pair of pants. He
first shot Cofer and then shot the other three people, killing Felicia. Six shots were
fired. Cofer, Mattie, and Sharon were shot in the thigh, ankle and thigh, and
buttock, respectively, and Felicia was shot in the hand and in the abdomen.

Page 2 of 10

Sweet was convicted of first-degree murder, three counts of attempted first-degree
murder, and burglary. The jury recommended a sentence of death by a vote of ten
to two, and the trial court followed this recommendation.
Sweet v. State, 624 So. 2d 1138, 1139 (Fla. 1993) (Sweet I). In imposing the death sentence, the
Court found the following aggravating factors: (1) Defendant had previously been convicted of
several violent felonies, including armed robbery, possession of a firearm by a convicted felon,
riot, resisting arrest with violence, and the contemporaneous attempted murders and burglary; (2)
the murder was committed to avoid arrest; (3) the murder was committed during a burglary; and
(4) the murder was cold, calculated, and premeditated. The Court found no statutory mitigating
circumstances, but found as non-statutory mitigation that Defendant lacked true parental
guidance as a teenager, which was given slight weight. Defendant’s conviction and sentence
were affirmed on direct appeal. Id. The United States Supreme Court denied certiorari on
February 28, 1994. Sweet v. Florida, 510 U.S. 1170 (1994) (Sweet II).
Defendant filed his initial motion for postconviction relief on August 1, 1995, which was
denied by the Court. On January 31, 2002, the Florida Supreme Court affirmed the Court’s order
denying the motion. Sweet v. State, 810 So. 2d 854 (Fla. 2002) (Sweet III). While the appeal of
the initial postconviction motion was pending, Defendant filed a petition for writ of habeas
corpus in the Florida Supreme Court. Defendant’s petition was denied on June 13, 2002. Sweet
v. Moore, 822 So. 2d 1269 (Fla. 2002) (Sweet IV).
On May 8, 2003, Defendant filed a successive motion for postconviction relief with the
Court, raising a claim under Ring v. Arizona, 536 U.S. 584 (2002). The Court denied the motion,
finding the motion was “untimely and facially insufficient. Fla. R. Crim. P. 3.851(d)(1);
3.851(e)(1)(E); 3.851(e)(2)(A); 3.851(e)(2)(B) (2000).” Sweet IV, at 1313. Further, the Court
held, “even assuming, arguendo, that Defendant's motion was timely and sufficient, on the
merits the motion had to be denied because the Supreme Court of Florida had already rejected
Page 3 of 10

this claim in other cases.” Id. (internal page numbers omitted). The Florida Supreme Court
affirmed. Sweet v. State, 900 So. 2d 555 (Fla. 2004) (Sweet V).
Defendant then filed a petition for habeas relief in the United States District Court for the
Middle District of Florida on January 18, 2005. The district court concluded the petition was
barred by the statute of limitations under 28 U.S.C. § 2244 (d). The Eleventh Circuit Court of
Appeals affirmed the denial. Sweet v. Sec’y, Dept. of Corr., 467 F.3d 1311 (11th Cir. 2006)
(Sweet VI).
On March 8, 2005, Defendant filed a third motion for postconviction relief. This time,
Defendant claimed he was entitled to relief pursuant to the United States Supreme Court decision
in Crawford v. Washington, 541 U.S. 36 (2004). On July 14, 2005, the Court denied the motion.
On June 16, 2006, the Florida Supreme Court affirmed.

Sweet v. State, 934 So.2d 450 (Fla.

2006) (Sweet VII)
On April 30, 2008, Defendant filed a fourth successive motion. The Court denied the
motion.

Defendant did not appeal the denial of the motion. On March 19, 2013, Defendant

filed his fifth successive motion, raising a claim under Martinez v. Ryan, 132 S. Ct. 1309 (2012).
On September 20, 2013, the postconviction court denied that motion. Once again, Sweet did not
appeal the denial of his motion. On October 28, 2016, Defendant filed his sixth successive
postconviction motion, which was denied by the Court on September 29, 2017. 1
At the time Defendant filed his eighth successive postconviction motion, the order
denying his sixth successive postconviction motion was on appeal before the Florida Supreme
Court, rendering this Court without jurisdiction to address the instant motion. Defendant filed a

1

At the same time of his sixth successive motion, Defendant filed a seventh successive motion
raising a claim of relief pursuant to Hurst, which was denied by the Court and affirmed by the
Florida Supreme Court.
Page 4 of 10

Motion to Relinquish Jurisdiction with the Florida Supreme Court, which was denied on May 3,
2018. A status hearing was held before this Court on May 10, 2018, at which time the Motion
was stricken from this Court’s calendar until jurisdiction was returned.
On May 24, 2018, the Florida Supreme Court rendered its Opinion affirming this Court’s
order denying Defendant’s sixth successive motion for postconviction relief. The Mandate
affirming the Opinion was issued by the Florida Supreme Court on July 25, 2018. At that time,
jurisdiction was returned to this Court to address Defendant’s pending Motion.
TIMELINESS
When a claim for postconviction relief is filed beyond the time limitation provided for in
Florida Rule of Criminal Procedure 3.851(d)(1), the claim must rely upon one of the following
enumerated exceptions:
(A) The facts on which the claim is predicated were unknown to the movant or the
movant’s attorney and could not have been ascertained by the exercise of due
diligence, or
(B) The fundamental constitutional right asserted was not established within the
period provided for in subdivision (d)(1) and has been held to apply
retroactively, or
(C) Postconviction counsel, through neglect, failed to file the motion.
Fla. R. Crim. P. 3.851(d)(2).

Any claim filed pursuant to the exception provided for in

subsection (A) must be filed within one year of when the facts could have been discovered by the
exercise of due diligence. Reed v. State, 116 So. 3d 260, 264 (Fla. 2013). Additionally,
subsection (C) only applies when counsel fails to file a “timely motion for postconviction relief,
not file a specific claim.” Howell v. State, 145 So. 3d 774, 775 (Fla. 2013).

Page 5 of 10

Grounds One and Two
In Grounds One and Two, Defendant claims postconviction counsel was ineffective for
failing to file claims of ineffective assistance of trial counsel. In Ground One, Defendant argues
postconviction counsel was ineffective for failing to file a claim about trial counsel’s alleged
substance abuse. In Ground Two, Defendant argues postconviction counsel was ineffective for
failing to file a Giglio claim based on Solomon Hansbury’s recantation. These claims are clearly
untimely because the claims were filed more than one year from when Defendant’s conviction
and sentence became final and when the underlying facts of the claims could have been
discovered with due diligence. Thus, subsection (A) cannot be relied upon to exempt these
claims from the timeliness requirement.
Defendant, therefore, relies on subsection (C) in arguing that the claims should be
exempted from the timeliness requirement because postconviction counsel negligently failed to
timely file them. Similar to the defendant in Howell, Defendant’s argument for why these claims
should be exempt is without merit. In Defendant’s case, postconviction counsel timely filed a
motion for postconviction relief pursuant to Rule 3.851 in 1995. Thus, Defendant is precluded
from utilizing the narrow exemption provided for in subsection (C). Therefore, Defendant’s
claims do not qualify for the exemptions provided for in Rule 3.851(d)(2) and are procedurally
barred as untimely.
Assuming arguendo Defendant’s claims were exempt from the timeliness requirement,
the Florida Supreme Court has repeatedly held that claims of ineffective assistance of
postconviction counsel are not cognizable. See Kokal v. State, 901 So. 2d 766, 777 (Fla. 2005);
Foster v. State, 810 So. 2d 910, 917 (Fla. 2002); King v. State, 808 So. 2d 1237, 1245 (Fla.
2002); Waterhouse v. State, 792 So. 2d 1176, 1193 (Fla. 2001); Lambrix v. State, 698 So. 2d

Page 6 of 10

247, 248 (Fla. 1996). Instead, the Florida Supreme Court has held that a capital defendant is
only entitled to meaningful access to judicial process during postconviction proceedings. Kokal,
901 So. 2d at 777. Considering this is Defendant’s eighth Rule 3.851 Motion, it is clear that
Defendant has had ample meaningful access to judicial process during the postconviction stage
of his case. Thus, the merits of Defendant’s claims that postconviction counsel was ineffective
are not only untimely, but are also not cognizable. Therefore, Defendant’s Grounds One and
Two are denied.

Ground Three
In Ground Three of Defendant’s Motion he alleges that the State possibly committed a
Brady violation when it presented Eric Wilridge’s arrest records at the Evidentiary Hearing on
Defendant’s sixth successive Rule 3.851 motion. The State claimed these records showed that
Mr. Wilridge was incarcerated at the time of Defendant’s offenses and, thus, he could not have
witnessed the offenses occur.2 The State argued Mr. Wilridge was incarcerated because records
showed he had been arrested prior to the date of the offenses, a substantial bond amount was set,
and the charges were dropped on a date after the offenses had occurred. The records did not
have a release date for Mr. Wilridge and it is possible he was able to post bond prior to the
offenses occurring.
Defendant claims additional records he obtained from Jacksonville Sherriff’s Office,
allegedly not disclosed by the State, cast doubt on the State’s inference about Mr. Wilridge’s
incarceration. Because knowledge by law enforcement is imputed to the State, Defendant argues

2

In his sixth successive motion for postconviction relief, Defendant claimed that Eric Wilridge
had come forward and was willing to testify that he had witnessed the offenses and Defendant
was not the perpetrator.
Page 7 of 10

this information should have been disclosed to the defense as exculpatory evidence and failure to
do so could be a Brady violation.
“Brady requires the State to disclose material information within its possession or control
that is favorable to the defense.” Riechmann v. State, 966 So. 2d 298, 307-08 (Fla. 2007). To
establish a Brady claim, a defendant has the burden to show: (1) favorable evidence, either
exculpatory or impeaching; (2) which was willfully or inadvertently suppressed by the State; and
(3) because the evidence was material, the defendant suffered prejudice. Id.
To establish the materiality prong, the defendant must demonstrate “a reasonable
probability that, had the evidence been disclosed to the defense, the result of the proceeding
would have been different.” United States v. Bagley, 473 U.S. 667, 682, 105 S.Ct. 3375, 87
L.Ed.2d 481 (1985). “A ‘reasonable probability’ is a probability sufficient to undermine
confidence in the outcome.” Wickham v. State, 124 So. 3d 841, 851 (Fla. 2013), as revised on
reh'g (Oct. 17, 2013).
Without addressing the first two prongs of Brady, Defendant’s claim is without merit
because he is unable to prove any prejudice resulting from the State’s alleged failure to disclose
these additional records.

As discussed in the Court’s Order Denying Defendant’s Sixth

Successive Motion for Postconviction Relief, Mr. Wilridge’s arrest records were given little to
no weight in assessing his credibility because they could not conclusively demonstrate he was
incarcerated at the time of the offenses. See Sweet v. State, 248 So. 3d 1060, 1065-66 (Fla.
2018)(discussing this Court’s reasoning for not finding Mr. Wilridge credible and concluding
that even if the introduction of the arrest records had been inappropriate, the effects were
harmless). Instead, this Court focused on Mr. Wilridge’s inconsistencies between the affidavit
and his testimony, his statements that he fabricated his affidavit, and the multi-decade gap

Page 8 of 10

between witnessing the events and deciding to come forward. Thus, even if the additional
records conclusively demonstrate that Mr. Wilridge was not incarcerated at the time, they would
have little to no effect on the Court’s decision in light of the ample evidence suggesting Mr.
Wilridge did not witness the offenses and fabricated his affidavit and testimony. Therefore,
Defendant’s claim in Ground Three is denied.

Ground Four
In Ground Four of Defendant’s Motion, he alleges his sentence of death is
unconstitutional because he is actually innocent of the offenses. Defendant’s claim of actual
innocence is not cognizable in a postconviction proceeding, as Florida does not recognize a
freestanding actual innocence claim. Tompkins v. State, 994 So. 2d 1072, 1089 (Fla. 2008); see
Elledge v. State, 911 So. 2d 57, 78 (Fla. 2005). Therefore, Defendant’s claim in Ground Four is
denied. Accordingly, it is:
ORDERED AND ADJUDGED that Defendant’s Eighth Successive Motion to Vacate
Judgments of Conviction and Sentence” (“Motion”) pursuant to Florida Rule of Criminal
Procedure 3.851, filed on April 24, 2018, is DENIED. Defendant shall have thirty (30) days
from the date that this Order is filed to take an appeal, by filing Notice of Appeal with the Clerk
of Court.
DONE in Jacksonville, Duval County, Florida on January 7, 2019.

_______________________________
ANGELA M. COX
Circuit Judge

Page 9 of 10

Copies furnished via e-service to:
Lara Mattina & Sheila Ann Loizos
Assistant State Attorney
Office of the State Attorney
Lisa A. Hopkins
Assistant Attorney General
Margaret Russell, Julie A. Morley, & Jami Chalgren
Assistant CCRC
Law Office of the Capital Collateral Regional Counsel
Middle Region
Copy furnished to via USPS Mail:
William Earl Sweet
DC# 100063
Florida State Prison
7819 N.W. 228th St.
Raiford, Florida 32026

CERTIFICATE OF SERVICE
I do certify that a copy hereof has been furnished to Defendant by United States
mail this 7th day of January, 2019.

Donna Gonzalez,
Judicial Assistant
Case No.:
/jlb

16-1991-CF-02889-AXXX-MA

Page 10 of 10

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix B: The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 293 So. 3d 448 (Fla. 2020).

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

Summary denial of a postconviction claim is
subject to de novo review. Fla. R. Crim. P.
3.851(f)(5)(B).

293 So.3d 448
Supreme Court of Florida.

William Earl SWEET, Appellant,
v.
STATE of Florida, Appellee.

[2]

Brady requires the state to disclose material
information within its possession or control that
is favorable to the defense.

No. SC19-195
|
February 27, 2020
Synopsis
Background: After conviction for first-degree murder and
sentence of death was affirmed on direct appeal, 624 So.2d
1138, movant filed successive motion to vacate conviction
and sentence and motion to compel production of public
records. The Circuit Court, 4th Judicial Circuit, Duval
County, Angela M. Cox, J., summarily denied motion to
vacate and entered order denying motion to compel. Movant
appealed.

[3]

Holdings: The Supreme Court held that:

[4]

Criminal Law
Constitutional obligations
regarding disclosure
Criminal Law

Impeaching evidence

To establish a Brady violation, defendant
must show: (1) that favorable evidence, either
exculpatory or impeaching, (2) was willfully or
inadvertently suppressed by the state, and (3)
because the evidence was material, the defendant
was prejudiced.

[1] movant failed to describe evidence that was material to
his guilt or punishment, precluding relief on newly discovered
evidence claim alleging spoliation of evidence and a Brady
violation;

Criminal Law
Materiality and probable
effect of information in general
In assessing Brady materiality and ensuing
prejudice from alleged Brady violation, court
reviews the net effect of the suppressed evidence
and determines whether the favorable evidence
could reasonably be taken to put the whole
case in such a different light as to undermine
confidence in the verdict.

[2] postconviction counsel's failure to file ineffective
assistance of trial counsel claim did not render claim timely
under exception to one-year deadline for filing motion to
vacate; and
[3] trial court did not abuse its discretion by denying motion
to compel.

Criminal Law
Materiality and probable
effect of information in general

[5]

Criminal Law
Materiality and probable
effect of information in general
Evidence that is too little, too weak, or too
distant from the main evidentiary points to meet
standards under Brady is not material, and thus
suppression of such evidence would not establish
Brady violation.

Affirmed.

West Headnotes (12)
[6]
[1]

Criminal Law

Review De Novo

Criminal Law

Other particular issues

Criminal Law
Excuse or justification for
destruction or loss

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

Even if movant sufficiently alleged evidence that
was favorable to defense and suppressed by the
state, movant failed to describe evidence that was
material to his guilt or punishment, precluding
relief on claim seeking to vacate first-degree
murder conviction and death sentence on basis
of newly discovered evidence of Brady violation
and spoliation of evidence related to jail records
showing that purported witness to murder who
could exonerate movant was not incarcerated at
time of shooting; determination that witness was
not credible was based on inconsistencies in his
accounts, not whether he was incarcerated at time
of shooting, any discrepancy in witness's jail
records was too little or too weak to be material
under Brady, and records would not undermine
confidence in the verdict. Fla. R. Crim. P. 3.851.

[7]

postconviction counsel, through neglect, failed
to file motion; exception applied where counsel's
neglect resulted in postconviction motion not
being filed and did not contemplate failure to
raise specific claims within a year. U.S. Const.
Amend. 6; Fla. R. Crim. P. 3.851(d)(1), 3.851(d)
(2)(C).

[10]

[11]

[9]

Criminal Law
Other proceedings
following conviction

Criminal Law

Criminal Law

Discovery and disclosure

Trial court did not abuse its discretion by
denying motion to compel Office of the State
Attorney to produce a files from former assistant
state attorney in postconviction proceedings
challenging first-degree murder conviction and
death sentence; request, which included decades
of voluminous notes regarding scores of criminal
cases, was overly broad and amounted to
a fishing expedition, and request was not
reasonably calculated to lead to the discovery of
admissible evidence in support of postconviction
claims, given that attorney did not prosecute
movant's case or discuss movant's case with
witness who allegedly gave false testimony. Fla.
R. Crim. P. 3.852(i).

Excuse or justification for
Criminal Law
destruction or loss

Ineffective assistance of postconviction counsel
is not a viable basis for relief under rule
governing collateral relief after death sentence
has been imposed and affirmed on direct appeal.
U.S. Const. Amend. 6; Fla. R. Crim. P. 3.851.

Criminal liability;

State does not recognize an independent claim of
actual innocence in postconviction proceedings.

As to spoliation of evidence allegations, the
effect of state's failure to satisfy its discovery
obligations is the same that applies to a Brady
violation, namely whether there is a reasonable
probability that, had the evidence been disclosed
to the defense, the result of the proceeding would
have been different.

[8]

Criminal Law
innocence

[12]

Criminal Law

Preliminary proceedings

Appellate court reviews denials of public records
requests under the abuse of discretion standard.
Fla. R. Crim. P. 3.852(i).

Proceedings

Postconviction counsel's failure to file
ineffective assistance of trial counsel claim
did not render claim for ineffective assistance
of trial counsel filed in successive motion to
vacate first-degree murder conviction and death
sentence timely under exception to one-year
deadline for filing motion to vacate judgment of
conviction and sentence of death on basis that

*449 An Appeal from the Circuit Court in and for
Duval County, Angela M. Cox, Judge - Case No.
161991CF002899AXXXMA
Attorneys and Law Firms
Eric C. Pinkard, Capital Collateral Regional Counsel,
Margaret S. Russell and Julie A. Morley, Assistant Capital

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

Collateral Regional Counsel, Middle Region, Temple Terrace,
Florida, for Appellant
Ashley Moody, Attorney General, and Lisa A. Hopkins,
Assistant Attorney General, Tallahassee, Florida, for
Appellee
Opinion
PER CURIAM.
William Earl Sweet challenges an order summarily denying
his eighth successive motion to vacate the judgment of
conviction and sentence of death, filed under Florida Rule
of Criminal Procedure 3.851. Sweet also challenges an order
denying his motion to compel production of public records.
We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.

FACTS AND PROCEDURAL BACKGROUND
In the opinion on direct appeal, we summarized the facts of the
incident underlying Sweet's conviction and death sentence:
*450 On June 6, 1990, Marcine Cofer was attacked in
her apartment and beaten and robbed by three men. She
could identify two of the men by their street names. On
June 26, 1990, she was taken by Detective Robinson to
the police station to look at pictures to attempt to identify
the third assailant. When Robinson dropped Cofer off at
her apartment, William Sweet was standing nearby and
saw her leave the detective. Unknown to Cofer, Sweet had
previously implicated himself in the robbery by telling a
friend that he had committed the robbery or that he had
ordered it done. Cofer asked her next-door neighbor, Mattie
Bryant, to allow the neighbor's daughters, Felicia, thirteen,
and Sharon, twelve, to stay with Cofer in her apartment that
night. Mattie agreed, and the children went over to Cofer's
apartment around 8 p.m.
At approximately 1 a.m. that evening, Sharon was watching
television in the living room of Cofer's apartment when she
heard a loud kick on the apartment door. She reported this
to Cofer, who was sleeping in the bedroom, but because
the person had apparently left, Cofer told Sharon not to
worry about it and went back to sleep. Shortly thereafter,
Sharon saw someone pulling on the living room screen.
She awakened Cofer. The two then went to the door of
the apartment, looked out the peephole, and saw Sweet
standing outside. Sweet called Cofer by name and ordered
her to open the door.

At Cofer's direction, Felicia pounded on the bathroom wall
to get Mattie's attention in the apartment next door, and a
few minutes later Mattie came over. The four then lined up
at the door, with Cofer standing in the back of the group.
When they opened the door to leave, Sweet got his foot
in the door and forced his way into the apartment. Sweet's
face was partially covered by a pair of pants. He first shot
Cofer and then shot the other three people, killing Felicia.
Six shots were fired. Cofer, Mattie, and Sharon were shot
in the thigh, ankle and thigh, and buttock, respectively, and
Felicia was shot in the hand and in the abdomen.
Sweet v. State, 624 So. 2d 1138, 1139 (Fla. 1993).
The jury found Sweet guilty of first-degree murder and
recommended a sentence of death. Id. at 1139. After finding
the existence of four statutory aggravating circumstances
and one nonstatutory mitigating circumstance (which was
assigned slight weight), the trial court sentenced Sweet to
death. Id. at 1142. On direct appeal, we affirmed Sweet's
conviction and death sentence. Id. at 1143.
In the twenty-five years following his direct appeal, Sweet
filed numerous postconviction motions—the latest being his
eighth successive motion to vacate the judgment of conviction
and sentence. Along with his eighth successive motion, Sweet
filed a motion to compel discovery documents from the
Office of the State Attorney for the Fourth Judicial Circuit.
The postconviction court summarily denied Sweet's eighth
successive postconviction motion and denied his motion to
compel.
In this appeal, Sweet challenges the postconviction court's
order summarily denying his eighth successive motion to
vacate the judgment of conviction and sentence. Sweet argues
that he was entitled to an evidentiary hearing on a newly
discovered evidence claim alleging spoliation of evidence and
a Brady1 violation, and that he was entitled to an evidentiary
hearing on several claims alleging ineffective assistance of
trial and postconviction counsel. *451 Sweet further argues
that the court erred in summarily denying a standalone actual
innocence claim. Finally, Sweet challenges the denial of
his motion to compel, arguing that he sufficiently alleged
entitlement to the requested records. We address each of
Sweet's arguments in turn, and for the reasons set forth below,
we affirm.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

SUMMARILY DENIED POSTCONVICTION CLAIMS
[1] Rule 3.851(f)(5)(B) provides that a circuit court may
summarily deny a successive postconviction motion if “the
motion, files, and records in the case conclusively show that
the movant is entitled to no relief.” A summary denial of a
postconviction claim is subject to de novo review. Long v.
State, 183 So. 3d 342, 344 (Fla. 2016) (quoting Hunter v.
State, 29 So. 3d 256, 261 (Fla. 2008)).

the murder. In 2017, when Sweet filed his sixth successive
postconviction motion, he attached an affidavit signed by
Wilridge. Wilridge swore he witnessed the shooting and could
rule Sweet out as the shooter. Sweet v. State, 248 So. 3d 1060,
1065 (Fla. 2018). The State produced Wilridge's arrest and
booking reports to show that Wilridge was incarcerated when
he supposedly witnessed the murder. The postconviction
court found that Wilridge was not a credible witness and this
Court affirmed. Id.

Now, in his instant eighth successive postconviction motion,
Sweet alleges that his collateral counsel recently obtained
copies of Wilridge's arrest and booking reports from the
I. Sweet's Spoliation of Evidence / Brady Violation Claim
Jacksonville Sheriff's Office (JSO) and the Duval County
Public Records Database (CORE), in hopes of proving that
Sweet argues that the postconviction court erred by
Wilridge was not incarcerated *452 and therefore could
summarily denying his newly discovered evidence claim
have seen the shooting. According to Sweet, the reports
alleging spoliation of evidence by the State and a Brady
obtained from CORE and JSO differ in certain respects
violation.
from the supposedly same documents that were previously
produced by the State during discovery for Sweet's sixth
[2]
[3] “Brady requires the State to disclose material
successive postconviction claim. Sweet argues:
information within its possession or control that is favorable
to the defense.” Riechmann v. State, 966 So. 2d 298, 307
Since the documents produced by the State, which were
(Fla. 2007). To establish a Brady violation, a defendant
admitted into evidence based on the business records
must show “(1) that favorable evidence, either exculpatory
exception to the hearsay rule, markedly differ from what is
or impeaching, (2) was willfully or inadvertently suppressed
available in CORE and what was produced by [JSO], there
by the State, and (3) because the evidence was material, the
was a grave possibility of a Brady violation, spoliation
defendant was prejudiced.” Dailey v. State, 283 So. 3d 782,
of evidence, and withholding evidence favorable to Mr.
789 (Fla. 2019) (quoting Taylor v. State, 62 So. 3d 1101,
Sweet.
1114 (Fla. 2011)); see also Turner v. United States, ––– U.S.
––––, 137 S. Ct. 1885, 1888, 198 L.Ed.2d 443 (2017) (“[T]he
We hold that the postconviction court did not err in summarily
government violates the Constitution's Due Process Clause
denying this claim. Even assuming Sweet sufficiently alleged
‘if it withholds evidence that is favorable to the defense and
evidence that was favorable to the defense and suppressed by
material to the defendant's guilt or punishment.’ ”) (quoting
the State, he failed to describe evidence that is material to his
Smith v. Cain, 565 U.S. 73, 75, 132 S.Ct. 627, 181 L.Ed.2d
guilt or punishment. In previous postconviction proceedings,
571 (2012)).
Sweet argued that the trial court erred in admitting Wilridge's
[4]
[5] In assessing Brady materiality and ensuing
prejudice, we “review the net effect of the suppressed
evidence and determine ‘whether the favorable evidence
could reasonably be taken to put the whole case in such a
different light as to undermine confidence in the verdict.’ ”
State v. Huggins, 788 So. 2d 238, 243 (Fla. 2001) (quoting
Maharaj v. State, 778 So. 2d 944, 953 (Fla. 2000)). Evidence
that is “too little, too weak, or too distant from the main
evidentiary points to meet Brady's standards” is not material.
Turner, 137 S. Ct. at 1894.
[6] Here, Sweet's spoliation and Brady claims are based
on jail records for Eric Wilridge, a purported witness to

arrest report and in finding that Wilridge was not a credible
witness. Sweet, 248 So. 3d at 1065. In affirming the denial of
relief as to these arguments, we noted that “[t]he trial court's
determination of Wilridge's credibility did not rest on the
admission of the arrest record,” id. at 1066, but on the fact that
Wilridge kept changing his story about what he supposedly
saw. Id. at 1067-68.2
As the determination of Wilridge's credibility was based
on inconsistencies in his accounts, not on whether he was
incarcerated, any discrepancy in Wilridge's jail records is
simply too little and too weak to be material under Brady
standards. See Huggins, 788 So. 2d at 243. Likewise, as the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

admission or exclusion of Wilridge's jail records would not
even affect the finding as to that one witness's credibility,
the purported evidence cannot reasonably be taken to put
Sweet's whole case in such a different light as to undermine
confidence in the verdict. See id. at 243. Accordingly, we
hold that Sweet's Brady allegations are meritless and therefore
affirm the summary denial of his Brady claim.
[7] As to Sweet's spoliation of evidence allegations, the
effect of the State's failure to satisfy its discovery obligations
“is [the same that applies to a Brady violation, namely]
whether there is a reasonable probability that ‘had the
evidence been disclosed to the defense, the result of the
proceeding would have been different.’ ” Jimenez v. State, 265
So. 3d 462, 479 (Fla. 2018) (alteration in original) (quoting
Duest v. Dugger, 555 So. 2d 849, 851 (Fla. 1990)). Because
the test for prejudice resulting from discovery violations is
the same test as for Brady violations, we affirm the summary
denial of Sweet's spoliation claim for the same reason we
affirm the denial of his Brady claim.

II. Sweet's Ineffective Assistance of Counsel Claims
Sweet argues that he was entitled to an evidentiary hearing
on his ineffective assistance of postconviction counsel claims.
Sweet alleges that his postconviction counsel provided
ineffective assistance by failing to file a claim alleging that
trial *453 counsel was ineffective as a result of inexperience
and severe alcoholism. Sweet alleges that postconviction
counsel failed to discover notes that revealed trial counsel's
incompetence. Sweet further alleges that postconviction
counsel failed to file a Giglio3 claim Sweet allegedly paid to
have investigated, regarding purportedly false trial testimony
given by witness Solomon Hansbury.
[8] However, “we have ‘repeatedly held that claims of
ineffective assistance of postconviction counsel are not
cognizable.’ ” Banks v. State, 150 So. 3d 797, 800 (Fla. 2014)
(quoting Howell v. State, 109 So. 3d 763, 774 (Fla. 2013));
see also State ex rel. Butterworth v. Kenny, 714 So. 2d 404,
407 (Fla. 1998) (“[D]efendants have no constitutional right to
representation in postconviction relief proceedings.”) receded
from on other grounds by Darling v. State, 45 So. 3d 444, 453
(Fla. 2010). Because ineffective assistance of postconviction
counsel is not a viable basis for relief under rule 3.851, we
affirm the summary denial of Sweet's ineffective assistance
of postconviction counsel claims.

[9] Moreover, to the extent Sweet's eighth successive
postconviction motion alleges an independent claim of
ineffective of trial counsel based on trial counsel's alcoholism
and inadequate preparation, such a claim is untimely. “Any
motion to vacate judgment of conviction and sentence of
death shall be filed by the defendant within 1 year after
the judgment and sentence become final.” Fla. R. Crim P.
3.851(d)(1). Rule 3.851(d)(2) provides certain exceptions
to the one-year deadline; for example, an untimely motion
will be considered timely if “postconviction counsel, through
neglect, failed to file the motion.” Fla. R. Crim. P. 3.851(d)
(2)(C).
Sweet admits that his ineffective assistance of trial counsel
claim was filed many years after his judgment and sentence
became final, but he argues that postconviction counsel's
failure to file the claim renders it timely. Sweet reads
subsection (d)(2)(C) too broadly. Subsection (d)(2)(C) creates
an exception to the one-year deadline for circumstances
where counsel's neglect results in a postconviction motion
not being filed within a year of final judgment; the rule
does not contemplate failure to raise specific claims within
a year. See Howell v. State, 145 So. 3d 774, 775 (Fla.
2013) (“[U]nder Howell's interpretation, a condemned inmate
would never face any time limitation in which to file a
motion for postconviction relief, because the inmate could
always assert that postconviction counsel neglected to raise a
claim.”).
Sweet's postconviction counsel did file a motion to vacate
Sweet's judgment of conviction and sentence within a year
of the date his judgment became final. Counsel's failure to
include this ineffective assistance of trial counsel claim in
the original postconviction motion does not make the new
claim forever timely. Because Sweet failed to allege a valid
exception to the one-year deadline for his otherwise untimely
claim, we hold that Sweet was not entitled to an evidentiary
hearing on his claim of ineffective assistance of trial counsel
(to the extent his motion includes such a claim).

III. Sweet's Actual Innocence Claim
[10] The next issue is whether Sweet's assertion of actual
innocence states a basis for postconviction relief. We hold
that it does not, for Florida does not recognize an independent
claim of actual innocence in postconviction proceedings.
Elledge v. State, 911 So. 2d 57, 78 (Fla. 2005) (“Elledge's
contention that he is innocent of the death penalty was decided

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

adversely to *454 Elledge on direct appeal and is not
cognizable in the postconviction proceeding”). We have also
held that Florida's refusal to recognize postconviction actual
innocence claims does not violate the Eighth Amendment.
Tompkins v. State, 994 So. 2d 1072, 1088-89 (Fla. 2008).
Because actual innocence is not a cognizable basis for
postconviction relief, we affirm the summary denial of this
claim.

Attorney's Office to produce every document, file, and case
note stored in de la Rionda's garage.

Notably, de la Rionda did not prosecute Sweet's case. Yet
Sweet insists that his request was reasonably calculated
to lead to the discovery of admissible evidence because
de la Rionda once prosecuted Solomon Hansbury, one of
the witnesses in Sweet's case. Sweet's eighth successive
postconviction motion alleges that Hansbury gave perjured
testimony against Sweet in exchange for a reduced sentence,
and Sweet's motion to compel argues that de la Rionda may
MOTION TO COMPEL RECORDS
have kept notes discussing Hansbury's decision to give false
[11] [12] In addition to challenging the summary denial of testimony.
his eighth successive postconviction motion, Sweet argues
We hold that the postconviction court did not abuse its
that the postconviction court abused its discretion by denying
discretion in denying Sweet's motion to compel. First, Sweet's
a motion asking the court to compel the Office of the State
request for decades of voluminous notes regarding scores of
Attorney to produce a former assistant state attorney's “secret
criminal cases was overly broad. A request for a garage full of
garage files.” We affirm the denial of Sweet's motion to
notes in hopes of finding any mention of a witness fabricating
compel.
testimony is a textbook example of a fishing expedition. See
A circuit court may order the production of public records
Dailey, 283 So. 3d at 792 (holding that rule 3.852(i) is “not
under Florida Rule of Criminal Procedure 3.852(i) only
intended to be a procedure authorizing a fishing expedition
upon finding that:
for records”) (quoting Bowles v. State, 276 So. 3d 791,795
(Fla. 2019)).
(A) collateral counsel has made a timely and diligent search
of the records repository;
Moreover, Sweet failed to establish that his request was
reasonably calculated to lead to the discovery of admissible
(B) collateral counsel's affidavit identifies with specificity
evidence in support of his postconviction claims. Sweet
those additional public records that are not at the records
attached to his eighth successive postconviction motion an
repository;
affidavit *455 signed by an investigator named Tom Wildes;
in that affidavit, Wildes swore that he had asked Hansbury
(C) the additional public records sought are either relevant
who gave him information about Sweet's case. Wildes swore
to the subject matter of a proceeding under rule 3.851 or
that Hansbury told him it was not de la Rionda who discussed
appear reasonably calculated to lead to the discovery of
Sweet's case, as Hansbury would have recognized de la
admissible evidence; and
Rionda from his own prosecution. Considering de la Rionda
(D) the additional records request is not overly broad or
did not prosecute Sweet's case and was not the person
unduly burdensome.
who purportedly discussed Sweet's case with the witness in
Chavez v. State, 132 So. 3d 826, 829 (Fla. 2014) (quoting Fla.
question, it is not reasonably likely that de la Rionda's case
R. Crim. P. 3.852(i)(2)). We review denials of rule 3.852(i)
notes would lead to the discovery of admissible evidence for
public records requests under the abuse of discretion standard.
Sweet's postconviction claim.
Id.
Sweet alleges that his collateral counsel recently read an
article published on Jacksonville.com about former Assistant
State Attorney Bernie de la Rionda. The article purportedly
made a reference to 30 boxes of case notes stacked in de la
Rionda's garage from his 35-year legal career. Sweet's motion
to compel asked the postconviction court to order the State

Because Sweet failed to show that his records request was
not overly broad and that it was reasonably calculated to
lead to the discovery of admissible evidence, we affirm
the postconviction court's order denying Sweet's motion to
compel.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Sweet v. State, 293 So.3d 448 (2020)
45 Fla. L. Weekly S76

CONCLUSION
All of Sweet's postconviction claims are legally insufficient
or based on allegations that are conclusively refuted by the
record. We therefore affirm the postconviction court's order
summarily denying relief. We also affirm the order denying
Sweet's motion to compel, for Sweet failed to demonstrate his
entitlement to the requested records.

It is so ordered.

CANADY, C.J., and POLSTON, LABARGA, LAWSON,
and MUÑIZ, JJ., concur.
All Citations
293 So.3d 448, 45 Fla. L. Weekly S76

Footnotes

1
2

3

Brady v. Maryland, 373 U.S. 83, 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).
Wilridge swore in his affidavit that he saw a man in a black/gray ski mask shooting into the residence, but Wilridge then
wrote letters to the court and to the State Attorney's Office denying the truth of his affidavit and insisting he did not
remember anything about the incident. Then, at the evidentiary hearing, Wilridge gave a third story, stating he saw people
at the location but could not make out any identifying features or even tell if the people were male or female; he also
swore that he did not see a gun and only heard gunshots after leaving.
Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix C: Order denying rehearing SC19-195, 2020 WL 1921623 (Fla. 2020),
issued April 21, 2020.

Filing # 106485024 E-Filed 04/21/2020 09:06:55 AM

Supreme Court of Florida
TUESDAY, APRIL 21, 2020
CASE NO.: SC19-195
Lower Tribunal No(s).:
161991CF002899AXXXMA
WILLIAM EARL SWEET

vs.

Appellant(s)

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
A True Copy
Test:

kc
Served:
MARGARET S. RUSSELL
JULIE A. MORLEY
LISA HOPKINS
HON. ANGELA M. COX, JUDGE
HON. MARK H. MAHON, CHIEF JUDGE
HON. RONNIE FUSSELL, CLERK
SHEILA ANN LOIZOS

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix D. The opinion of the Supreme Court of Florida affirming the judgment and
sentence, reported at Sweet v. State, 624 So. 2d 1138 (Fla. 1993).

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

624 So.2d 1138
Supreme Court of Florida.

[2]

Synopsis
Following jury trial, defendant was convicted in the Circuit
Court, Duval County, Frederick B. Tygart, J., for first-degree
murder, attempted first-degree murder and burglary. The
Supreme Court held that: (1) defendant's request to represent
himself was rendered moot by acceptance of new counsel;
(2) evidence of prior robbery was admissible; (3) finding that
murder was cold, calculated, and premeditated was justified;
(4) finding that defendant committed murder to avoid arrest
was justified; (5) trial court's failure to correctly instruct jury
as to use of prior felony in sentencing was harmless error;
and (6) trial court erred in imposing consecutive sentences for
burglary and attempted murder convictions.

2 Cases that cite this headnote
[3]

[4]

Discharge for self-

Trial court could not have reasonably allowed
defendant to represent himself, though defendant
wanted to go to trial immediately and to fire his
attorney who had asked for continuance, where
defendant was unprepared to represent himself
and did not understand State's case or nature of
preparing for defense. West's F.S.A. RCrP Rule
3.111(d).

Sentencing and Punishment
premeditation, and calculation

Planning,

To prove murder was cold, calculated,
and premeditated, for use as sentence
aggravator, state must show heightened level
of premeditation establishing that defendant had
careful plan or prearranged design to kill. West's
F.S.A. § 921.141(5)(i).
9 Cases that cite this headnote
[5]

Criminal Law
representation

Same or identical victims

Evidence that defendant participated in robbery
of victim three weeks prior to defendant's
attempted murder of victim was relevant to show
defendant's motive for attempted murder.

Kogan, J., concurred as to conviction and concurred in result
only as to sentence.

[1]

Criminal Law
Homicide, mayhem, and
assault with intent to kill
Criminal Law

Affirmed with modification.

West Headnotes (10)

Mootness

Trial court's failure to conduct full inquiry into
defendant's ability to represent himself, after
defendant requested discharge of counsel so
defendant could proceed to immediate trial,
was rendered moot when defendant's concern
for immediate trial diminished, and defendant
accepted and expressed satisfaction with new
counsel.

William Earl SWEET, Appellant,
v.
STATE of Florida, Appellee.
No. 78629.
|
Aug. 5, 1993.
|
Rehearing Denied Oct. 14, 1993.

Criminal Law

Sentencing and Punishment
premeditation, and calculation

Planning,

Trial court's finding that defendant killed victim
in cold, calculated, and premeditated manner
was warranted, though defendant claimed he
was merely trying to harass potential witness in
pending robbery investigation, where defendant
had motive of eliminating potential witness,
defendant went to apartment of potential witness
late at night with a gun, tried to break in and
immediately began shooting once door was open.
West's F.S.A. § 921.141(5)(i).
3 Cases that cite this headnote

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

[6]

Sentencing and Punishment
premeditation, and calculation

Planning,

Fact that murder victim was not actual subject of
defendant's plan to kill, did not preclude finding
of cold, calculated premeditation; level of
preparation, not success or failure of defendant's
plan is key. West's F.S.A. § 921.141(5)(i).
7 Cases that cite this headnote
[7]

Sentencing and Punishment
other obstruction of justice

Sentencing and Punishment
Nature,
degree, or seriousness of other offense

2 Cases that cite this headnote
Criminal Law
Grade or degree of offense;
included offenses; punishment
Trial court's failure to instruct jury that
they had to consider individual circumstances
surrounding crime of possession of firearm
by convicted felon before using that crime to
aggravate sentence was harmless error where
several other convictions justified use of prior
violent felony aggravator. West's F.S.A. §
921.141(5)(b).
2 Cases that cite this headnote

Trial court erred in imposing four consecutive
minimum mandatory sentences for one burglary
and three attempted murder convictions where
offenses arose out of same criminal episode.

Escape or

Defendant's prior conviction for possession of
firearm by convicted felon could qualify as
prior violent felony for purpose of aggravating
defendant's sentence, though this was not per
se crime of violence, where circumstances of
that particular crime were shown to have been
violent. West's F.S.A. § 921.141(5)(b).

[9]

Sentencing and Punishment
Offenses
Committed in One Transaction, Episode, or
Course of Conduct

2 Cases that cite this headnote

Finding that defendant committed murder to
avoid arrest was warranted where defendant
had motive to eliminate potential witness to
previously committed robbery, and defendant
had seen potential witness talking to police on
day of murder. West's F.S.A. § 921.141(5)(e).

[8]

[10]

Attorneys and Law Firms
*1139 Nancy A. Daniels, Public Defender, and David
A. Davis, Asst. Public Defender, Second Judicial Circuit,
Tallahassee, for appellant.
Robert A. Butterworth, Atty. Gen., and Mark C. Menser, Asst.
Atty. Gen., Tallahassee, for appellee.
Opinion
PER CURIAM.
William Sweet appeals his convictions for first-degree
murder, three counts of attempted first-degree murder, and
burglary, and his sentence of death. We have jurisdiction
under article V, section 3(b)(1) of the Florida Constitution.
On June 6, 1990, Marcine Cofer was attacked in her apartment
and beaten and robbed by three men. She could identify
two of the men by their street names. On June 26, 1990,
she was taken by Detective Robinson to the police station
to look at pictures to attempt to identify the third assailant.
When Robinson dropped Cofer off at her apartment, William
Sweet was standing nearby and saw her leave the detective.
Unknown to Cofer, Sweet had previously implicated himself
in the robbery by telling a friend that he had committed
the robbery or that he had ordered it done. Cofer asked her
next-door neighbor, Mattie Bryant, to allow the neighbor's
daughters, Felicia, thirteen, and Sharon, twelve, to stay with
Cofer in her apartment that night. Mattie agreed, and the
children went over to Cofer's apartment around 8 p.m.
At approximately 1 a.m. that evening, Sharon was watching
television in the living room of Cofer's apartment when she
heard a loud kick on the apartment door. She reported this
to Cofer, who was sleeping in the bedroom, but because the
person had apparently left, Cofer told Sharon not to worry

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

about it and went back to sleep. Shortly thereafter, Sharon saw
someone pulling on the living room screen. She awakened
Cofer. The two then went to the door of the apartment, looked
out the peephole, and saw Sweet standing outside. Sweet
called Cofer by name and ordered her to open the door.
At Cofer's direction, Felicia pounded on the bathroom wall to
get Mattie's attention in the apartment next door, and a few
minutes later Mattie came over. The four then lined up at the
door, with Cofer standing in the back of the group. When they
opened the door to leave, Sweet got his foot in the door and
forced his way into the apartment. Sweet's face was partially
covered by a pair of pants. He first shot Cofer and then shot
the other three people, killing Felicia. Six shots were fired.
Cofer, Mattie, and Sharon were shot in the thigh, ankle and
thigh, and buttock, respectively, and Felicia was shot in the
hand and in the abdomen.
Sweet was convicted of first-degree murder, three counts
of attempted first-degree murder, and burglary. The jury
recommended a sentence of death by a vote of ten to two, and
the trial court followed this recommendation.
Sweet's first argument on appeal is that the trial court erred
by failing to adequately inquire into whether Sweet wanted
to represent himself. Sweet was arrested on June 28, 1990.
During a pretrial hearing, Sweet objected to his counsel's
request for a continuance and stated that he wanted to go to
trial immediately.1 The conversation proceeded as follows:
*1140 THE DEFENDANT: I don't want to file for
continuance. You told me on the 24th that this was going
to be my trial. I want to make sure—I want to go to trial
this week with Mr. Gazaleh. I'm not—he filed motions to
continue. I'm not willing to. I want to go ahead and go to
trial.
THE COURT: You have the right to represent yourself.
You don't have to have a lawyer. If you want to represent
yourself and you say you're ready to try the case this
week we could do it.

THE COURT: You're talking about your life here, Mr.
Sweet.
THE DEFENDANT: I know that. I want to go to trial. I
want to pick the jury.
THE COURT: Well, your lawyer is not ready.
THE DEFENDANT: Yes, sir. I want to pick the jury
today and go to trial sometime this week.
THE COURT: And face the electric chair?
THE DEFENDANT: Yes, sir.
THE COURT: The law is very clear. If he is not ready to
go to trial I can't make him. If you want to fire him and
represent yourself that's your privilege. But I think it's
probably a short walk to the electric chair to do that and
that you're going to have lawyers working against you.
THE DEFENDANT: If that's the case I want to go ahead
and pick the jury today and go ahead and elect Mr.
Gazaleh.
THE COURT: Then you can do that.
THE DEFENDANT: Let's pick the jury then, Your
Honor.
THE COURT: You want Mr. Gazaleh or do you—
THE DEFENDANT: If he don't want to represent me
today and go to trial then I'll take my chances and just
go ahead and go to trial.
THE COURT: Why do you want to go to trial today as
opposed to a few weeks from now?
THE DEFENDANT: I want to make sure—they've left
me sitting down where I ain't got no business down here.
They've got me sitting down here—
....

THE DEFENDANT: Can't he go with me?

THE COURT: Do you have any witnesses subpoenaed
to testify for you, Mr. Sweet?

THE COURT: He's not ready.

THE DEFENDANT: I have no witnesses.

THE DEFENDANT: If I get convicted—I don't have
anybody if I get convicted? The law says you can't go to
trial unless your lawyer is—

THE COURT: Do you know who the State is going to
call as witnesses against you?

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

THE DEFENDANT: The State ain't got no witnesses.
They haven't took no depositions who they going to put
on. They haven't, who they going to put.

THE COURT: They can get ready.

THE COURT: They don't have to take depositions.

THE COURT: I'll note the defendant's objection
and overrule it and grant Mr. Gazaleh's motion for
continuance.

THE DEFENDANT: I have got the right to meet my
accused. Who are they going to put on the stand?
THE COURT: They have got a whole bunch of police
officers and detectives.
THE DEFENDANT: Police officers ain't the ones that
initiated and orchestrated this crime. They ain't got no
key witnesses. They ain't got—
THE COURT: They don't have to have depositions to go
to trial. Depositions are for the defense, not for the State.
THE DEFENDANT: Then go to trial.
THE COURT: Well, Mr. Sweet, I don't think you're
capable of representing yourself because you don't
understand anything that happens at a trial, do you? Have
you been through a jury trial before?
....
THE DEFENDANT: I went all the way through trial but
it was mistrial. The jury *1141 had deliberated. They
didn't come up with a verdict.
THE COURT: Mr. Sweet, under the circumstances I'm
afraid that if I don't grant Mr. Gazaleh's motion for
continuance and proceed to trial I'm going to waste
everybody's time because the Supreme Court is going to
send it right back here to be tried again and you're not
going to get this thing disposed. It's going to take longer.
....
THE COURT: Hear me out. I listened to you, you listen
to me. The Supreme Court automatically will review
your case if you get the electric chair. When they do and
I see what happened they're going to send it right back
here about six months from now and say Judge Haddock,
put a lawyer back on the case and try him again. The way
you did it wasn't right. So what have we gained.
THE DEFENDANT: Same way—the State ain't ready to
go to trial neither.

THE DEFENDANT: Get ready. Let's go.

....
THE COURT: Go ahead and set your depositions and
then maybe somebody—
THE DEFENDANT: Excuse me. Can you fire him and
can we go to trial then? I cannot wait, set here for the
first of the year.
THE COURT: I don't want to try your case twice, Mr.
Sweet. I only want to try it once.
THE DEFENDANT: I'm ready to go to trial. If we
talking about the first of the year that ain't that much time
to get no case going. Go ahead and fire him and then we
go to trial.
THE COURT: We'll set the case for January the 14th for
jury trial.
[1] It is clear from the above conversation that Sweet's
overriding concern was proceeding to trial immediately. It
is also clear Sweet mistakenly believed that if he was tried
immediately the State would be unprepared and he would be
acquitted. Sweet had a fundamental misunderstanding of the
State's case against him and of the nature of the preparation
of a defense. He obviously did not understand that the fact
there were no depositions taken of State witnesses did not
inure to his benefit, but to the benefit of the State. While
the court's inquiry fell short of the requirements of Faretta
v. California, 422 U.S. 806, 95 S.Ct. 2525, 45 L.Ed.2d 562
(1975), and Florida Rule of Criminal Procedure 3.111(d), the
court could not have reasonably permitted Sweet to represent
himself and go to trial immediately when it was evident that
he was unprepared to do so.
[2] Further, Sweet later voluntarily withdrew his pro se
demand for speedy trial filed January 30, 1991, indicating
his concern for an immediate trial had diminished. Sweet
ultimately proceeded to trial in May of 1991 with a
different attorney, and at his sentencing Sweet spontaneously
pronounced his satisfaction with counsel's performance.
Therefore, while it appears that Sweet unequivocally
requested discharge of counsel, and the court failed to conduct

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

an adequate inquiry into Sweet's ability to represent himself,
under the circumstances of this case the failure was rendered
moot by Sweet's subsequent acceptance of and satisfaction
with new counsel and by the dissipation of his reason for
2

wanting counsel removed. See Scull v. State, 533 So.2d
1137, 1139–41 (Fla.1988) *1142 (failure to adequately
inquire into request to discharge attorney rendered moot
by defendant's subsequent expressions of satisfaction with
attorney's performance), cert. denied, 490 U.S. 1037, 109
S.Ct. 1937, 104 L.Ed.2d 408 (1989).
[3] Sweet next argues that the trial court erred in admitting
evidence that Cofer had been robbed three weeks before
the murder and that Sweet participated in the robbery. We
agree with the State that this evidence was adequately tied to
Sweet and was relevant to show his motive for the shooting.
We find substantial competent evidence to support Sweet's
convictions, and they are accordingly affirmed.
Turning to the penalty phase of trial, in imposing the death
sentence the trial court found the following aggravating
circumstances: (1) Sweet had previously been convicted of
several violent felonies, including armed robbery, possession
of a firearm by a convicted felon, riot, resisting arrest with
violence, and the contemporaneous attempted murders and
burglary; (2) the murder was committed to avoid arrest; (3) the
murder was committed during a burglary; and (4) the murder
was cold, calculated, and premeditated.3 The court found no
statutory mitigating circumstances, but found as nonstatutory
mitigation that Sweet lacked true parental guidance as a
teenager. This mitigation was given slight weight.
[4] [5] Sweet first argues that the trial court erred in finding
that the murder was cold, calculated, and premeditated. In
order to prove the existence of this aggravator, the State must
show a heightened level of premeditation establishing that
the defendant had a careful plan or prearranged design to
kill. Rogers v. State, 511 So.2d 526, 533 (Fla.1987), cert.
denied, 484 U.S. 1020, 108 S.Ct. 733, 98 L.Ed.2d 681 (1988).
Here, the State proved such a prearranged plan to kill Marcine
Cofer. Sweet's motive was to eliminate a potential witness in
a pending robbery investigation. After seeing Cofer talking to
the police, Sweet went to her apartment, late at night, with a
gun. He spent some time pounding on the door and attempting
to break in. Then, when the door was opened, he pushed
his way in and immediately began shooting. He attempted
to cover his face with a pants leg, and he said nothing upon
entering the apartment. This scenario is consistent with a plan

to kill and not, as Sweet argues, a plan to merely scare or
harass Cofer so she would not implicate him in the robbery.
[6] Although Felicia Bryant was not the actual subject of
the planning, this fact does not preclude a finding of cold,
calculated premeditation. As we stated in Provenzano v. State,
497 So.2d 1177, 1183 (Fla.1986), cert. denied, 481 U.S.
1024, 107 S.Ct. 1912, 95 L.Ed.2d 518 (1987), “[h]eightened
premeditation necessary for this circumstance does not have
to be directed toward the specific victim.” It is the manner of
the killing, not the target, which is the focus of this aggravator.
Id.
Finally, the key to this factor is the level of preparation,
not the success or failure of the plan, and we therefore
reject Sweet's argument that because there were survivors
of the shooting this aggravator is not applicable. Sweet was
probably surprised by the presence of Cofer's neighbors, and
planning is not the equivalent of shooting skill.
[7] Sweet next argues that the trial court erred in finding
that he committed the murder to avoid arrest. In making this
determination, the trial court found that Sweet's motive in
going to Cofer's apartment was to eliminate her as a witness to
the prior robbery. The court pointed out that Sweet had seen
Cofer talking to the police earlier on the day of the murder,
that there was substantial evidence he had been involved in
the prior robbery of Cofer, and that he made statements after
his arrest which indicated his intent. While it turned out that
an innocent bystander, Felicia, was killed instead of the target,
Cofer, the dominant motive for the killing remains the same,
and we agree with the trial court that this aggravator was
established beyond a reasonable doubt.
[8] [9] Sweet's next argument is that the trial court erred in
finding that his prior conviction for possession of a firearm by
a *1143 convicted felon qualified as a prior violent felony.
While this offense is not per se a crime of violence, the
circumstances of this particular crime were shown to have
been violent, as Sweet used the firearm to hit someone in
the face and ribs. However, the trial court did err in failing
to instruct the jury that they had to consider the individual
circumstances of the crime in order to determine if it was
violent before weighing it as a prior violent felony. Johnson v.
State, 465 So.2d 499, 505 (Fla.), cert. denied, 474 U.S. 865,
106 S.Ct. 186, 88 L.Ed.2d 155 (1985). In light of the fact
that there were several other convictions supporting the prior
violent felony aggravator, the error was harmless.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Sweet v. State, 624 So.2d 1138 (1993)
18 Fla. L. Weekly S447

[10] Finally, Sweet argues that the trial court erred in
imposing four consecutive fifteen-year minimum mandatory
sentences for the burglary and attempted murder convictions.
We agree that the imposition of consecutive minimum
mandatory sentences when the offenses arose out of the same
criminal episode was error under Daniels v. State, 595 So.2d
952 (Fla.1992).
Accordingly, we affirm Sweet's convictions and his sentence
of death. We also affirm Sweet's other sentences, except that
the minimum mandatory aspects thereof shall be deemed to
run concurrently with each other.

It is so ordered.

BARKETT, C.J., and OVERTON, McDONALD, SHAW,
GRIMES and HARDING, JJ., concur.
KOGAN, J., concurs as to the conviction and concurs in result
only as to the sentence.
All Citations
624 So.2d 1138, 18 Fla. L. Weekly S447

Footnotes

1

2

3

This hearing took place on November 5, 1990, when Sweet was represented by Mr. Gazaleh. Gazaleh was appointed
to represent Sweet on September 19, 1990, after Sweet's public defender reported a conflict of interest. Gazaleh was
subsequently replaced by Mr. Adams when Gazaleh, too, had a conflict of interest. Adams ultimately represented Sweet
at trial with the assistance of Mr. Moore.
Sweet also alludes to another problem he had with a different attorney, Mr. Adams, asking for a continuance. After
reviewing the transcript of the January 14, 1991, hearing, we conclude that Sweet did not ask to represent himself at that
time, but rather tried to fire Adams because he was not satisfied with his performance. The trial court made adequate
inquiry into the reason for Sweet's dissatisfaction and properly found that dismissal of counsel was not justified. See
Bowden v. State, 588 So.2d 225, 229–30 (Fla.1991), cert. denied, 503 U.S. 975, 112 S.Ct. 1596, 118 L.Ed.2d 311 (1992);
Peede v. State, 474 So.2d 808, 815–16 (Fla.1985), cert. denied, 477 U.S. 909, 106 S.Ct. 3286, 91 L.Ed.2d 575 (1986).
Even if the trial court had erred in its handling of this proceeding, the same analysis would apply as discussed above
and any error would have been rendered moot.
§ 921.141(5)(b), (e), (d), (i), Fla.Stat. (1989).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix E. The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 810 So. 3d 854 (Fla. 2002).

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

the perpetrator through the peephole. U.S.C.A.
Const.Amend. 6.

810 So.2d 854
Supreme Court of Florida.

William Earl SWEET, Appellant,
v.
STATE of Florida, Appellee.

[3]

Presentation of Witnesses

Attorney made a strategic decision not to call
as a witness a person who had knocked on
victim's door on night of the murder and
attempted murders, but who had made an outof-court identification of the defendant as the
person who had pulled a gun on him and
forced him to knock; the attorney thus did not
render ineffective assistance in capital murder
prosecution. U.S.C.A. Const.Amend. 6.

No. SC00-1509.
|
Jan. 31, 2002.
Synopsis
Petitioner was convicted in the Circuit Court, Duval County,
Frederick B. Tygart, J., of first-degree murder, attempted
first-degree murder, and burglary and was sentenced to
death. The Supreme Court, 624 So.2d 1138, affirmed
with modification. Petitioner then sought post-conviction
relief. The Circuit Court, Duval County, Frederick Tygart,
J., denied relief. Petitioner appealed. The Supreme Court
held that: (1) attorney did not render ineffective assistance
in guilt or penalty phases, and (2) cumulative effect of
evidence presented in post-conviction proceeding, including
prosecution witness' recantation of testimony, did not entitle
the defendant to relief.

Criminal Law

2 Cases that cite this headnote
[4]

Criminal Law
Investigating, Locating, and
Interviewing Witnesses or Others
Attorney did not render ineffective assistance in
a capital murder prosecution by failing to ensure
the appearance of a subpoenaed witness to testify
that the defendant did not appear to be one of
three men outside a victim's apartment on the
night of the shootings; the attorney secured a
recess to find the witness, and the witness gave
inconsistent testimony, refused to divulge name
of one person, and admitted bad eyesight and
lack of a good look. U.S.C.A. Const.Amend. 6.

Affirmed.
Anstead, J., concurred in the result only.

1 Cases that cite this headnote
West Headnotes (17)
[1]

Criminal Law

[5]
Effective Assistance

Criminal Law

Preparation for Trial

Attorney's failure to investigate victim's
boyfriend as suspect was not deficient
in prosecution for first-degree murder and
attempted first-degree murder by shooting victim
and neighbors after forced entry into apartment;
the boyfriend was a co-habitant of a victim, and
neither the victim nor her neighbor could identify

Arguments

Attorney's alleged lack of preparation in
presenting testimony of defendant's sister did
not prejudice the defendant in the penalty phase
of a capital murder prosecution; any additional
testimony in mitigation was essentially
cumulative regarding defendant's background
and childhood. U.S.C.A. Const.Amend. 6.

Ineffective assistance of counsel claims present a
mixed question of law and fact subject to plenary
review. U.S.C.A. Const.Amend. 6.

[2]

Sentencing and Punishment
and Conduct of Counsel

[6]

Sentencing and Punishment
and Conduct of Counsel

Arguments

Attorney's failure to present testimony of
defendant's mother did not prejudice the
defendant in the penalty phase of a capital

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

murder prosecution; although the mother could
have presented some new facts concerning
the defendant's childhood, the majority of her
testimony would have been cumulative to
testimony by the defendant's sister, presenting
the mother as a witness would have opened the
door to cross-examination about the defendant's
juvenile record, and her testimony would not
have established any statutory mitigation or
refuted any statutory aggravation. U.S.C.A.
Const.Amend. 6.

Cumulative effect of evidence presented in postconviction proceeding, including prosecution
witness' recantation of testimony that the
defendant confessed to the murder while they
were in jail together, did not entitle the defendant
to relief in a capital murder prosecution. West's
F.S.A. RCrP Rule 3.850.
2 Cases that cite this headnote
[10]

1 Cases that cite this headnote
[7]

Sentencing and Punishment
and Conduct of Counsel

[8]

Sentencing and Punishment
and Conduct of Counsel

2 Cases that cite this headnote
[9]

Criminal Law

[11]

Criminal Law
by Witness

Contradictory Statements

In determining whether a new trial is warranted
due to recantation of a witness's testimony, a trial
judge is to examine all the circumstances of the
case, including the testimony of the witnesses
submitted on the motion for the new trial.

[12]

Criminal Law
by Witness

Contradictory Statements

Recanting testimony is exceedingly unreliable,
and it is the duty of the court to deny a new trial
where it is not satisfied that such testimony is
true.

Arguments

Attorney's failure to request the appointment of
a mental health expert to evaluate him did not
prejudice the defendant in the penalty phase
of a capital murder prosecution; although a
psychologist who testified after trial believed
that the defendant could not have committed
the crime in a cold and calculated manner,
was unable to conform his conduct to the
requirements of the law, and was under the
influence of an emotional disturbance, evidence
at trial overwhelmingly showed a motive and
intent to eliminate a witness to a prior robbery.
U.S.C.A. Const.Amend. 6.

Contradictory Statements

Recantation by a witness called on behalf of
the prosecution does not necessarily entitle a
defendant to a new trial.

Arguments

Attorney's failure to present testimony of
defendant's foster mother did not prejudice the
defendant in the penalty phase of a capital
murder prosecution; her testimony would have
been cumulative to testimony by the defendant's
sister, presenting the foster mother as a witness
could have led to the admission of evidence
of the defendant's juvenile record, and her
testimony would not have established any
statutory mitigation or refuted any statutory
aggravation. U.S.C.A. Const.Amend. 6.

Criminal Law
by Witness

[13]

Criminal Law
by Witness

Contradictory Statements

Criminal Law
Probable Effect of New
Evidence, in General
Recantation by a witness called on behalf of the
prosecution entitles a defendant to a new trial
only when it appears that, on a new trial, the
witness's testimony will change to such an extent
as to render probable a different verdict will a
new trial be granted.

Perjured Testimony

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

[14]

Criminal Law
Sanity Hearing

Competence to Stand Trial;

Attorney's failure to provide mental health
experts with information concerning the
defendant's background and competency to stand
trial was not shown to prejudice the defendant in
a capital murder prosecution; evidence supported
the trial court's conclusion that the state called
an expert and established that his opinion would
not have been different even when specifically
considering the facts not specifically noted in his
report. U.S.C.A. Const.Amend. 6.
3 Cases that cite this headnote
[15]

Criminal Law

Necessity for Hearing

A defendant is not entitled to an evidentiary
hearing if the post-conviction motion is legally
insufficient on its face. West's F.S.A. RCrP Rule
3.850.
4 Cases that cite this headnote
[16]

Criminal Law
General

Arguments and Conduct in

Reciting claims from post-conviction motion
in a sentence or two, without elaboration
or explanation, failed to preserve claims of
ineffective assistance of counsel. U.S.C.A.
Const.Amend. 6.
14 Cases that cite this headnote
[17]

Matters Which Either Were
Criminal Law
or Could Have Been Adjudicated Previously, in
General
Post-conviction claim that the trial court erred in
finding no statutory and only one nonstatutory
mitigating circumstance was procedurally barred
since the defendant could have raised it on direct
appeal.
5 Cases that cite this headnote

Attorneys and Law Firms
*856 Michael P. Reiter, Capital Collateral Counsel-Northern
Region, John M. Jackson, Assistant CCRC, and Kimberly L.
Sharkey, Assistant CCRC-Northern Region, Tallahassee, FL,
for Appellant.
Robert A. Butterworth, Attorney General, and Barbara J.
Yates, Assistant Attorney General, Tallahassee, FL, for
Appellee.
Opinion
PER CURIAM.
William Earl Sweet appeals the trial court's denial of
postconviction relief after an evidentiary hearing. We have
jurisdiction. See art. V, § 3(b)(1), Fla. Const. For the reasons
stated below, we affirm the trial court's order denying Sweet
postconviction relief.
Sweet, who was twenty-three years old at the time of the
offenses, was convicted of first-degree murder, three counts
of attempted first-degree murder, and burglary. See Sweet v.
State, 624 So.2d 1138, 1139 (Fla.1993). The facts of the crime
are detailed in this Court's opinion on direct appeal.
On June 6, 1990, Marcine Cofer was attacked in her
apartment and beaten and robbed by three men. She could
identify two of the men by their street names. On June
26, 1990, she was taken by Detective Robinson to the
police station to look at pictures to attempt to identify
the third assailant. When Robinson dropped Cofer off at
her apartment, William Sweet was standing nearby and
saw her leave the detective. Unknown to Cofer, Sweet had
previously implicated himself in the robbery by telling a
friend that he had committed the robbery or that he had
ordered it done. Cofer asked her next-door neighbor, Mattie
Bryant, to allow the neighbor's daughters, Felicia, thirteen,
and Sharon, twelve, to stay with Cofer in her apartment that
night. Mattie agreed, and the children went over to Cofer's
apartment around 8 p.m.
At approximately 1 a.m. that evening, Sharon was watching
television in the living room of Cofer's apartment when she
heard a loud kick on the apartment door. She reported this
to Cofer, who was sleeping in the bedroom, but because
the person had apparently left, Cofer told Sharon not to
worry about it and went back to sleep. Shortly thereafter,
Sharon saw someone pulling on the living room screen.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

She awakened Cofer. The two then went to the door of
the apartment, looked out the peephole, and saw Sweet
standing outside. Sweet called Cofer by name and ordered
her to open the door.
At Cofer's direction, Felicia pounded on the bathroom wall
to get Mattie's *857 attention in the apartment next door,
and a few minutes later Mattie came over. The four then
lined up at the door, with Cofer standing in the back of
the group. When they opened the door to leave, Sweet got
his foot in the door and forced his way into the apartment.
Sweet's face was partially covered by a pair of pants. He
first shot Cofer and then shot the other three people, killing
Felicia. Six shots were fired. Cofer, Mattie, and Sharon
were shot in the thigh, ankle and thigh, and buttocks,
respectively, and Felicia was shot in the hand and in the
abdomen.
Id. The jury recommended a sentence of death by a vote of
ten to two, and the trial court followed this recommendation.
See id. The trial court found four aggravators1 and no
statutory mitigators, but found as a nonstatutory mitigating
circumstance that Sweet “lacked true parental guidance as a
teenager.” Id. at 1142.2
On direct appeal, this Court affirmed Sweet's convictions
and sentence of death. See id. at 1143.3 Sweet timely filed a
motion for postconviction relief on August 1,1995, and filed
an amended motion on June 30, 1997, raising twenty-eight
claims.4 *858 A Huff5 hearing was held on February 20,
1998. The trial court granted an evidentiary hearing, which
was held from January 25 through January 28, 1999, on the
following four claims: (1) trial counsel, Charlie Adams, failed
to investigate and present evidence of other suspects; (2)
Adams failed to present, as potentially mitigating evidence,
Sweet's background history; (3) Adams failed to present
background information to the mental health experts; and (4)
the mental health experts conducted an inadequate evaluation.
The trial court summarily denied Sweet's remaining claims.
After the evidentiary hearing, the trial court denied relief
on the four remaining claims. Sweet now appeals the trial
court's denial of postconviction relief, raising six issues for
this Court's review.6

1. INEFFECTIVE ASSISTANCE OF COUNSEL DURING
GUILT PHASE

[1] In order to establish an ineffective assistance of counsel
claim, a defendant must prove two elements:
First, the defendant must show that counsel's performance
was deficient. This requires showing that counsel made
*859 errors so serious that counsel was not functioning
as the “counsel” guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel's errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable.
Unless a defendant makes both showings, it cannot be
said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result
unreliable.
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984); see also Rutherford v. State, 727
So.2d 216, 219-20 (Fla.1998). To establish deficiency, “the
defendant must show that counsel's representation fell below
an objective standard of reasonableness” based on “prevailing
professional norms.” Strickland, 466 U.S. at 688, 104 S.Ct.
2052. To establish prejudice “[t]he defendant must show
that there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would
have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id. at
694, 104 S.Ct. 2052. Ineffective assistance claims present
a mixed question of law and fact which is subject to
plenary review. See Stephens v. State, 748 So.2d 1028, 1032
(Fla.1999). “This requires an independent review of the trial
court's legal conclusions, while giving deference to the trial
court's factual findings.” State v. Riechmann, 777 So.2d 342,
350 (Fla.2000). Moreover, because the “Strickland standard
requires establishment of both prongs, where a defendant fails
to make a showing as to one prong, it is not necessary to delve
into whether he has made a showing as to the other prong.”
Waterhouse v. State, 792 So.2d 1176, 1182 (Fla.2001).
[2] In Sweet's first claim, he asserts that the trial court erred
in denying his ineffective assistance claim during the guilt
phase with regard to Adams' failure to investigate and present
evidence of other suspects and individuals who would have
refuted the State witnesses' identification of Sweet as the
shooter. Sweet contends that his theory of defense was that he
was innocent and that the State's witnesses misidentified him
as the shooter. Sweet claims that three witnesses-Dale George,
Jesse Gaskins, and Anthony McNish-were available to either
identify other individuals as the shooter or to establish that
Sweet was not the shooter, and that trial counsel rendered

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

ineffective assistance by failing to utilize these witnesses at
trial.
As to Dale George, Sweet contends that Adams rendered
ineffective assistance in failing to investigate George as a
suspect. George was Marcine Cofer's boyfriend, and he lived
with Cofer at the time of the shooting. Sweet maintains
that Adams rendered ineffective assistance in failing to
investigate George as a possible suspect for several reasons.
First, Adams had police reports containing several domestic
violence petitions that Cofer filed against George, alleging
that George had threatened to kill her and that Cofer feared
for her life. Second, the evidence at trial showed that in the
afternoon preceding the night of the shooting, George took
the clip out of Cofer's gun. Third, evidence was presented at
trial that George was involved in drug-dealing activity with
Cofer, and Sweet alleges that this could have provided an
alternative motive for the shooting. Fourth, the State's theory
of prosecution in this case originated with George, and Sweet
contends that this should have raised a red flag that a potential
suspect was trying to shift the blame to another.
Although Adams' theory of defense in this case was that
someone else killed the victim, Adams never put on evidence
of *860 other suspects at trial. At the evidentiary hearing,
Adams admitted that evidence of other potential suspects
would have been helpful. However, Adams stated that he
never considered George a suspect because there was no
credible reason why Cofer and her neighbor, Sharon Bryant,
could not identify George if he was the shooter. Bill Salmon,
who was accepted at the evidentiary hearing as an expert on
capital cases, stated that the failure to investigate George as
a suspect presented a “close question” as to whether Adams
acted deficiently. Salmon ultimately concluded, however,
that Adams should have presented George to the jury as
an alternative suspect. At a minimum, Salmon concluded,
Adams should have investigated and considered George
before making the determination of whether George should
take the stand.
In rejecting Sweet's contention that Adams rendered
ineffective assistance in failing to investigate George as a
potential suspect, the trial court explained:
In the defendant's second claim under this ground, he
alleges that counsel failed to investigate other possible
suspects who would have had a motive to kill Marcine
Cofer.... The only other person that the defendant suggests
had a motive to kill Cofer was Dale George. Dale George
was not only Cofer's boyfriend, he lived with Cofer, and

he was known to Sharon Bryant. There was no evidence
presented as to why George would have had any problem
getting into the home that he lived in, as did the murderer,
nor why either Cofer or Bryant would not have identified
George as the person they saw through the peep hole in the
front door and who had shot them.
We agree with the trial court's conclusion that Adams'
performance was not deficient in failing to pursue George as
a possible suspect. There was no evidence in this case that
George was involved in the shooting, and Sweet presented
no evidence at the evidentiary hearing that George was a
possible suspect. Further, there was no evidence that the
police ever considered George to be a suspect so as to lead
us to a conclusion that Adams was deficient in not pursuing
George as an alternative suspect. See Haliburton v. Singletary,
691 So.2d 466, 470-71 (Fla.1997) (holding that counsel's
decision not to use a possible witness was not “so patently
unreasonable that no competent attorney would have chosen”
to forego the witness's testimony).
[3] Sweet next contends that Adams rendered ineffective
assistance in failing to call Jessie Gaskins as a witnesses.
At a pretrial deposition, Gaskins stated that someone pulled
a gun on him and made him knock on Cofer's door on the
night of the murder. Gaskins described the person as wearing
a ski mask and did not mention whether or not the person
was wearing jewelry. Sweet contends that this testimony is
inconsistent with the identification of Sweet by Cofer and
Bryant.
At trial, Bryant described the shooter as wearing rings on his
fingers and a beaded necklace with a crucifix on the end.
Moreover, Bryant stated that the shooter was wearing a blue
jean pant leg over his face. Bryant also identified Sweet in a
photographic spread at the police station and at trial. Although
she stated that she saw Sweet directly through the door
peephole, she also testified that she did not actually see the
face of the shooter. Furthermore, Cofer described the shooter
at trial as having something covering his face, like “a piece
of clothing.” She testified that this clothing was not covering
the shooter's entire face, and that she recognized Sweet's eyes,
nose, and a “partial of his face” through the clothing. Cofer
identified Sweet as the shooter when the police *861 came
to investigate the murder scene, and while she was in the
hospital, she picked Sweet out of a photographic spread.
At the evidentiary hearing, Adams testified that he did not
use Gaskins as a witness because Gaskins had made an out-

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

of-court statement identifying Sweet as the shooter after he
saw Sweet on television. Moreover, Adams explained that
Gaskins gave the police a signed statement saying that the
man Gaskins saw on television looked like the man who made
him knock on Cofer's door. Therefore, Adams did not want
to risk the possibility of a third eyewitness identification of
Sweet as the shooter.
When asked about Adams' performance with regard to
Gaskins, Salmon stated: “Gaskins would at least have given
the jury something to think about ... food for thought” with
regard to Sweet's identification. Salmon stated that this “food
for thought” also would have carried over to the penalty phase
in allowing the jury to consider a penalty less than death.
With regard to Gaskins' identification of Sweet as the shooter,
Salmon stated that he believed that the identification would
not have been admissible because of either relevancy or
materiality. Moreover, Salmon felt that Gaskins' identification
was “equivocal,” and that he would not have been troubled
by putting Gaskins on the stand even with Gaskins' out-ofcourt statement. However, upon cross-examination, Salmon
admitted that the State could have brought out Gaskins'
statement if Gaskins testified, and that it may have been a
strategic decision not to put him on the stand.
We conclude that Adams was not deficient in deciding not
to call Gaskins. The record demonstrates that Adams made a
strategic decision not to call Gaskins as a witness based upon
the possibility that Gaskins' out-of-court identification could
have come in at trial. See Maharaj v. State, 778 So.2d 944,
959 (Fla.2000) (holding that counsel's strategic reason not to
call alibi witness could not constitute deficient performance);
Rose v. State, 675 So.2d 567, 570 (Fla.1996) (same).
[4] Finally, Sweet contends that Adams rendered ineffective
assistance in failing to ensure that Anthony McNish appear
at trial. Adams had subpoenaed McNish to appear at trial,
but he did not show up. At trial, Adams told the court that
McNish would have testified that he was on his way home
at the time of the shooting and that he passed Cofer's house.
McNish would have testified that he saw three black males
come up to the apartment in the alley, but also would have
testified that it was dark. McNish had known Sweet for five
or six years, and would have testified that none of the three
men walked like Sweet or were built like Sweet. Adams also
told the trial court that McNish was supposed to come to
court the day before, and, when he did not show up, Adams
contacted McNish. McNish stated that he was confused as
to the date, but assured Adams that he would appear the

following day. That next day, when McNish failed to appear,
Adams requested a thirty-minute continuance to find McNish,
and the trial court granted him fifteen minutes. Forty-five
minutes later, Adams told the trial court that he went to both
McNish's residence and McNish's grandmother's residence,
and that McNish could not be found. The trial court stated:
“It seems like you've certainly made extraordinary efforts to
locate Mr. McNish and have him here.”
McNish testified at the evidentiary hearing. McNish stated
that the three men at Cofer's door walked differently than
Sweet, and that the three men each had a different skin
complexion and physical build than Sweet. McNish admitted
that he received the subpoena Adams sent, but *862 that he
never read it. Moreover, McNish stated that he read the date
of the subpoena, but did not read the part of the subpoena
instructing him to call Adams. McNish claimed that he did
not go to court on the date instructed because he had to watch
his daughter. McNish stated that he ultimately did call Adams,
and told Adams that he had no transportation. Adams disputed
that McNish ever told him that he needed transportation.
The State established on cross-examination that McNish had
been convicted of seven felonies, including crimes involving
dishonesty. Further, although he stated at a pretrial deposition
that he could not see any of the three mens' faces at Cofer's
door, that it was dark, and that he had bad eyesight, he
explained at the evidentiary hearing that, after thinking about
it, he had a good idea of what the three men looked like.
However, he repeated at the evidentiary hearing that he had
bad eyesight and never got a good look at the three men.
Moreover, McNish never saw any of the men wearing a mask,
and he did not actually see the men knock on the door. Finally,
McNish stated at the evidentiary hearing that he could identify
one of the men that was at Cofer's door now, but he refused
to reveal the name of the person. He did state that the man is
not Sweet.
The trial court found that Sweet failed to demonstrate either
deficient performance or prejudice, explaining:
The evidence at the hearing established that counsel had
listed and intended to use McNish as a witness, that McNish
appeared at a deposition by the State pursuant to subpoena,
that McNish had assured counsel that he would appear at
trial, that he had been subpoenaed by counsel to appear
at trial (but had not read that subpoena), and that counsel
secured a recess in the trial to go to McNish's house
and to McNish's grandmother's house in order to locate
McNish, but was unsuccessful in his efforts. This Court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

specifically finds that counsel was not ineffective in his
efforts to secure McNish's appearance at trial. Moreover,
given McNish's inconsistent testimony at the evidentiary
hearing and complete evasiveness regarding a critical piece
of newly divulged evidence-some eight years after the fact,
the jury would find McNish's testimony to be as incredible
as this Court found it to be, and therefore, the defendant has
also failed to show any actual prejudice as well.
We agree with the trial court that Sweet demonstrated neither
deficient performance nor prejudice with regard to McNish.

“normal.” However, she also testified that their mother was
an alcoholic “on and off.” Deonne stated that she did not
know if their mother's alcoholism affected Sweet, but that it
did not affect her. Deonne explained that she raised Sweet
for a period of time, and that Sweet was a good uncle to
Deonne's daughter. Deonne testified that Sweet never caused
any problems for her when she was raising him. Finally,
Deonne stated that she and Sweet were in a foster home
because of their mother's neglect and alcoholism, and that
Sweet was in a foster home for approximately two years.

In short, none of these claims refute the overwhelming
evidence of guilt presented by the State. Further, “[e]ven
assuming any deficiency in trial counsel's guilt-phase
performance, there is no reasonable probability, sufficient to
undermine our confidence in the outcome, that the result of
the proceeding would have been different.” Rutherford, 727
So.2d at 220.

At the evidentiary hearing, Deonne elaborated on her prior
trial testimony. The new portions of her testimony included
the fact that Sweet never knew his father, and that his father
never acknowledged Sweet as his son. Sweet sometimes
witnessed their mother fighting with her boyfriends and
their mother would sometimes hide from them. Sweet had
behavioral problems in school and could not sit down and pay
attention. Furthermore, Sweet had a stuttering problem for
which he went to speech therapy. Sweet was sent to a juvenile
facility in Marianna. Sweet was never physically abused.

2. INEFFECTIVE ASSISTANCE DURING PENALTY
PHASE
In Sweet's second claim, he asserts that trial counsel rendered
ineffective assistance in failing to present readily available
mitigating evidence during the penalty phase. Sweet actually
raises several separate but related claims. First, Sweet
contends that trial counsel was ineffective in presenting the
testimony of his sister, Deonne Sweet, during the penalty
phase. Second, Sweet argues that Adams was ineffective in
failing to present Sweet's mother, Bertha Sweet, and Sweet's
foster mother, Emily Shealey, during the penalty phase.
Finally, Sweet maintains that Adams was ineffective in failing
to present available mental mitigation during the penalty
*863 phase. We address each claim individually, but also
evaluate the cumulative effect of the additional mitigation
in order to determine whether Sweet has demonstrated
prejudice.
[5] At the penalty phase, Adams relied solely on Deonne
Sweet to provide mitigation testimony. Adams explained at
the evidentiary hearing that he had several meetings with
Deonne where he discussed the types of things he would ask
during the penalty phase. He asked Deonne if she had the
names of any family members he could speak to, and he stated
7

that she did not give him any information.

Deonne testified to the following at trial. She and Sweet
grew up without a father. Growing up with her mother was

Sweet contends that defense counsels' lack of preparation
in presenting Deonne's testimony constituted deficient
performance. However, we need not decide this issue, as
we conclude that, based solely on Deonne's testimony at the
evidentiary hearing, Sweet has failed to establish prejudice.
See Waterhouse, 792 So.2d at 1182 (where defendant fails
to make showing as to one prong of Strickland, it is
unnecessary to analyze the other prong). We conclude that
although Deonne elaborated on her trial testimony during the
evidentiary hearing, this additional testimony was essentially
cumulative.
As to Sweet's claim that his counsel was ineffective in
failing to have his mother and foster parent testify, the
trial court found that Adams did speak to various potential
witnesses concerning mitigation, including Sweet's mother,
his girlfriend, his girlfriend's mother, and his foster parents.
Furthermore, we note with regard to this mitigation, that
this is not a case where Adams failed to investigate any
available mitigating witnesses. See, e.g., Rose, 675 So.2d at
572; Heiney v. State, 620 So.2d 171, 173 (Fla.1993).
[6] We do not, however, reach the issue of whether
Adams was deficient in failing to have additional penalty
phase *864 witnesses testify, because, having reviewed the
testimony of the witnesses at the evidentiary hearing, we
agree with the trial court that Sweet did not establish prejudice

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

under this claim. Although Bertha Sweet's testimony at the
evidentiary hearing did present some new facts concerning
Sweet's childhood, the majority of the testimony was
cumulative to Deonne's trial testimony. Not only was the
testimony cumulative to Deonne's testimony that was actually
presented at trial, but presenting Bertha as a witness would
have opened the door to cross-examination about Sweet's
juvenile record.
For example, Bertha stated that Sweet got into trouble a
number of times as a juvenile and was sent away to the Dozier
School for Boys in Marianna. Sweet was suspended from
school for misconduct and he would get into fights at school.
Bertha testified that Sweet was arrested for battery in 1981 for
hitting another child and that he was taken into custody for
being ungovernable. Moreover, Sweet began stealing things
at a very young age and this continued into his teenage years.
Bertha also testified that Sweet was once arrested for stealing
a bicycle. Thus, to the extent that the jury may have benefitted
from this additional testimony, the jury also would have heard
potentially damaging information regarding Sweet's juvenile
record and prior violent behavior. Moreover, none of Bertha's
testimony established any statutory mitigation or refuted any
statutory aggravation.
[7] We also reject Sweet's ineffective assistance claim with
regard to the failure to call Sweet's foster mother, Emily
Shealey, as a witness during the penalty phase. Adams spoke
with Shealey before trial. At the evidentiary hearing, he stated
that he did not present her as a witness because of “something
she said,” although he could not remember what specific thing
she said that caused him concern. At the evidentiary hearing,
Shealey testified that when Sweet arrived at her house, Sweet
told her that his mother was not taking care of him and was
drinking a lot. Shealey also stated that Sweet did not do well in
school at first, but Shealey “straightened him out” and placed
him on Ritalin. Moreover, Sweet behaved well in Shealey's
home, and got along with Shealey's son. However, she also
acknowledged that Sweet stole from a store at least three
times and misbehaved a lot in class. Salmon conceded at the
evidentiary hearing that by placing Shealey (as well as Bertha
Sweet) on the stand, the State would have been able to elicit
Sweet's juvenile criminal history through cross-examination.
Similar to Bertha Sweet's testimony, we conclude that
Shealey's testimony was cumulative to that of Deonne's.
In fact, Shealey's testimony probably would have been
damaging, in that Sweet's juvenile criminal history would
likely have been disclosed to the jury. Moreover, none of

Shealey's testimony established any statutory mitigation or
refuted any statutory aggravation in this case.
[8] Sweet's final contention of penalty phase ineffectiveness
is that Adams rendered ineffective assistance in failing to
request the appointment of a mental health expert to evaluate
Sweet. At the evidentiary hearing, Sweet presented the
testimony of Drs. Ernest Miller and Jethro Toomer. Dr. Miller,
a retired professor of psychiatry, was appointed by the trial
court to evaluate Sweet for competency. Dr. Miller rendered
a report in which he found Sweet competent to stand trial.
However, Adams never submitted the competency report into
evidence or pursued with Dr. Miller the potential for further
examination of Sweet in order to establish mental mitigation.
*865 As we stated in Rutherford, 727 So.2d at 223:
In evaluating the Strickland prongs of deficiency and
prejudice, it is important to focus on the nature of the
mental mitigation Rutherford now claims should have been
presented. This focus is of assistance when determining
whether trial counsel's choice was a reasonable and
informed strategic decision, as well as whether the failure
to present such testimony (assuming that the failure
amounted to a deficiency in performance) deprived the
defendant of a reliable penalty phase proceeding.
Dr. Toomer, a clinical and forensic psychologist, evaluated
Sweet for the purposes of the evidentiary hearing. Dr. Miller's
testimony contradicted Dr. Toomer's testimony. Dr. Toomer
testified that he did not administer the Minnesota Multiphastic
Personality Inventory (“MMPI”) because “there is nothing
suggesting the existence of any severe form of mental illness
or major mental illness” with regard to Sweet. Dr. Toomer
testified about Sweet's family background and also stated
that Sweet had an IQ of 88, which fell in the low-average
range. Dr. Toomer stated that he did not test Sweet for
organic impairment, but that Sweet did fall within the range
of psychological problems. Dr. Toomer explained that, based
on Sweet's background, there were a number of “red flags”
concerning overall functioning. Dr. Toomer stated that Sweet
was suffering from a personality disorder, in that he was
dependent upon others, but did not suffer from an antisocial
personality disorder. Dr. Toomer explained that he found no
sign of organic brain damage and that Sweet did not fall into
the mentally deficient category.
Further, Dr. Toomer testified that Sweet could not have
committed the crime in a cold and calculated manner
because, based upon Sweet's background, he did not act

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

in a logical, premeditated manner. Moreover, Dr. Toomer
stated that Sweet was unable to conform his conduct to
the requirements of the law, based upon his impulsivity,
and therefore, Sweet should have been able to establish a
statutory mental mitigator. On cross-examination, Dr. Toomer
conceded that Sweet had been able to conform his conduct to
the requirements of law while in jail, but explained that this
was due to the fact that he was in a structured environment.
Moreover, Dr. Toomer stated on cross-examination that Sweet
knew the difference between right and wrong at the time he
committed the murder. Dr. Toomer also explained that Sweet
was under the influence of an emotional disturbance at the
time of the murder based upon his borderline personality
disorder, and thus Sweet would have been able to establish
another statutory mitigator.
In contrast to Dr. Toomer, Dr. Miller testified that Sweet
suffered from an antisocial personality disorder. However,
Dr. Miller explained that people who suffer from antisocial
personality disorders may be capable of engaging in planning.
Moreover, Dr. Miller stated that Sweet would sometimes have
the capacity to satisfy the CCP aggravator, and that at other
times Sweet would act out impulsively. Dr. Miller stated that
Sweet was capable of engaging in long-range planning and
forming the design to kill someone after deliberation. Yet Dr.
Miller also testified that the defense might have been able
to argue against CCP because of Sweet's impulsive behavior.
Moreover, Dr. Miller stated that Sweet could appreciate the
criminality of his conduct. Dr. Miller testified that he saw
no evidence of brain damage or mental illness. Dr. Miller
concluded that it was difficult to find anything directly and
openly mitigating in this case and that the facts of this case
suggest premeditation and planning.
*866 In rejecting the testimony that Sweet could not have
formed the premeditation sufficient to establish the CCP
aggravator and that Sweet was under an extreme emotional
disturbance at the time of the murder, the trial court evaluated
not only the testimony of the expert witnesses, but the other
evidence at trial regarding the heightened premeditation that
surrounded the planning and execution of this murder:
However, this Court finds that the evidence in this case
contradicts Dr. Toomer's opinions. The evidence at trial
overwhelmingly showed the defendant's motive and intent
to eliminate the victim/witness to his prior robbery of that
victim, and the defendant's own inculpatory statements to
Manuela Roberts and Solomon Hansbury provide the icing
on the cake.

We conclude that it is not reasonably probable, given the
nature of all the additional mitigation, that this “altered
picture would have led to the imposition of a life sentence,
outweighing the multiple substantial aggravators at issue in
this case.” Rutherford, 727 So.2d at 226. We have carefully
reviewed the evidentiary hearing testimony of Dr. Miller and
Dr. Toomer and agree with the trial court that, given the nature
of the mental health mitigation presented by these experts
at the evidentiary hearing, Sweet has failed to demonstrate
that he was deprived of a reliable penalty phase hearing.
Moreover, we cannot conclude that the presentation of the
testimony would have led to the imposition of a sentence
other than death, given the four strong aggravators and
the nature and extent of the additional mitigation evidence
presented at the evidentiary hearing. We find this case similar
to Rutherford:
Even if the additional mitigation evidence Rutherford
presented at the 3.850 hearing had been heard and
considered by the jury and original judge, it is not
reasonably probable, given the nature of the mitigation
offered, that this altered picture would have led to the
imposition of a life sentence, outweighing the multiple
substantial aggravators at issue in this case (HAC, CCP, and
robbery/ pecuniary gain). Rutherford was not deprived of
a reliable penalty proceeding.
727 So.2d at 225-26; see also Haliburton v. Singletary,
691 So.2d 466, 471 (Fla.1997) (“In light of the substantial,
compelling aggravation found by the trial court [i.e., under
sentence of imprisonment, prior violent felonies, committed
during a burglary, and CCP] there is no reasonable probability
that had the mental health expert testified, the outcome would
have been different.”).
As to the additional mitigation evidence presented through
Deonne Sweet, Bertha Sweet and Emily Shealey, we conclude
that the testimony is both cumulative and potentially harmful,
as the testimony might have opened the door for the
State to present negative information concerning Sweet's
background. See Rutherford, 727 So.2d at 224-25 (explaining
that essentially cumulative testimony presented during 3.850
evidentiary hearing was insufficient to establish prejudice in
failing to present additional mitigation); see also Ventura v.
State, 794 So.2d 553, 570 (Fla.2001) (holding that defendant
could not establish prejudice where the mitigation presented
at evidentiary hearing was cumulative of evidence presented
at trial); Breedlove v. State, 692 So.2d 874, 878 (Fla.1997)
(affirming denial of 3.850 relief where “the three aggravating
factors we have previously affirmed [prior violent felony,
during course of burglary, and HAC] overwhelm whatever

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

mitigation the [3.850] testimony of [the defendant's] friends
and family members could provide”). Accordingly, we reject
Sweet's claim of ineffective assistance of counsel during the
penalty phase.

*867 3. CUMULATIVE ERROR UNDER STATE v.
GUNSBY, 670 So.2d 920 (Fla.1996)
[9] In Sweet's third claim on appeal, he asserts that this Court
must consider the evidence concerning Sweet's innocence
disclosed during the evidentiary hearing in conjunction with
Sweet's allegations of ineffective assistance. Specifically,
Sweet asserts that because Solomon Hansbury, a witness
at trial who claimed that Sweet confessed to the murder
while they were in jail together, recanted his testimony at the
evidentiary hearing, the trial court erred in failing to consider
the cumulative effect of all the evidence not presented at
Sweet's trial. In making this claim, Sweet relies upon this
Court's decision in State v. Gunsby, 670 So.2d 920 (Fla.1996).
In Gunsby the Court explained:
[W]hen we consider the cumulative effect of the testimony
presented at the rule 3.850 hearing and the admitted Brady
violations on the part of the State, we are compelled to
find, under the unique circumstances of this case, that
confidence in the outcome of Gunsby's original trial has
been undermined and that a reasonable probability exists
of a different outcome.
Id. at 924.

confession of perjury.” Only when it appears that, on a new
trial, the witness's testimony will change to such an extent
as to render probable a different verdict will a new trial be
granted.
(Citations omitted.)
Certainly, the testimony of Hansbury standing alone would
not rise to the level of requiring the granting of a new trial,
and Sweet does not contend that he was entitled to a new trial
based solely on Hansbury's recantation. Considering all of the
testimony presented at the evidentiary hearing in this case,
we reject Sweet's claim under Gunsby. As noted above, Sweet
has failed to establish an ineffective assistance of counsel
claim with regard to the guilt-phase proceedings. Therefore,
we deny relief on this claim.

4. INEFFECTIVE ASSISTANCE IN FAILING TO
PROVIDE COMPETENCY EXPERTS WITH SWEET'S
BACKGROUND INFORMATION
[14] In Sweet's fourth claim, he contends that Adams
rendered ineffective assistance in failing to provide Dr. Miller
and Maritza Cabrera with information concerning Sweet's
background. The trial court rejected this claim, concluding:

This Court appointed two independent mental health
professionals to examine the defendant, Dr. Ernest C.
Miller, M.D., and Maritza Cabrera, M.A., CRC.... The
[professionals'] report shows that the examiners were,
in fact, aware of much of the information that *868
[10]
[11]
[12]
[13] However, before we engage in the defendant contends his counsel did not provide them
with. The information in the report is stated in concise
a cumulative error analysis under Gunsby, we must first
summarizations, as opposed to being recited in the detail
consider Hansbury's testimony. The trial court expressly
that the defendant has stated it in his motion. The defendant
rejected Hansbury's testimony at the evidentiary hearing, in
did not call Dr. Miller as a witness at the hearing to establish
which he recanted his earlier statement, as “incredible.” As
his alleged lack of adequate information; rather, the State
this Court explained in Armstrong v. State, 642 So.2d 730,
called Dr. Miller and established that his opinion would
735 (Fla.1994), in rejecting a new trial based upon recanted
not have been different even when specifically considering
testimony:
the facts not specifically noted in his report. Therefore,
Recantation by a witness called on behalf of the
this Court finds that the evidence failed to establish any
prosecution does not necessarily entitle a defendant to a
prejudice to the defendant's mental health examination.
new trial. In determining whether a new trial is warranted
(Emphasis supplied.) The trial court's factual conclusions are
due to recantation of a witness's testimony, a trial judge is
supported by competent substantial evidence and we likewise
to examine all the circumstances of the case, including the
conclude that Sweet has failed to demonstrate any prejudice.
testimony of the witnesses submitted on the motion for the
See Patton v. State, 784 So.2d 380, 393 (Fla.2000) (holding
new trial. “Moreover, recanting testimony is exceedingly
that defendant failed to demonstrate actual prejudice where
unreliable, and it is the duty of the court to deny a new
competency expert testified that his opinion would not have
trial where it is not satisfied that such testimony is true.
changed even after considering additional information).
Especially is this true where the recantation involves a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

In a related claim, Sweet asserts that the mental
health professionals who examined him failed to render
adequate mental health assistance. Sweet contends that the
professionals relied almost exclusively on what Adams
provided, which was inadequate, and did not conduct an
independent investigation into Sweet's family history. Sweet
contends that the professionals might have reached a different
conclusion as to Sweet's competency if they had engaged
in a more thorough investigation of Sweet's background.
However, because there is no evidence to support the
conclusion that either of the experts' opinions would have
changed regarding competency, we reject this claim.

5. MISCELLANEOUS CLAIMS
In his fifth claim, Sweet makes several different subclaims.
First, Sweet asserts that the trial court erred in granting
an evidentiary hearing on only one aspect of his claim
regarding ineffective assistance of counsel during the guilt
phase. Second, Sweet claims that the trial court should have
considered the additional examples of Adams' ineffectiveness
and the State's alleged misconduct in conjunction with
his claim that Adams failed to properly investigate other
suspects. Finally, Sweet contends that the trial court should
have considered the improper actions of the trial judge
in conjunction with Sweet's ineffective assistance claim
regarding Adams' failure to investigate other suspects. Each
of these claims shall be addressed in turn.
Sweet's first subclaim is that the trial court erred in granting
an evidentiary hearing on only one aspect of Sweet's
ineffectiveness claim. Sweet asserts that he raised three
separate bases for Adams' ineffectiveness during the guilt
phase in his postconviction motion. These bases were: (1)
Adams failed to conduct an adequate pretrial investigation
and preparation of the case; (2) Adams failed to investigate
and present evidence of other suspects; and (3) Adams failed
to properly impeach the State's witnesses, Marcine Cofer and
Solomon Hansbury. The trial court granted an evidentiary
hearing for only Adams' alleged failure to investigate and
present evidence of other suspects. However, during the
evidentiary hearing, defense counsel did present evidence in
an attempt to establish ineffectiveness under the first and third
subclaims.
[15] As this Court explained in Gaskin v. State, 737 So.2d
509, 516 (Fla.1999):

Under rule 3.850, a postconviction defendant is entitled
to an evidentiary hearing unless the motion and record
conclusively show that the defendant is *869 not entitled
to relief. The movant is entitled to an evidentiary hearing
on a claim of ineffective assistance of counsel if he alleges
specific “facts which are not conclusively rebutted by
the record and demonstrate a deficiency in performance
that prejudiced the defendant.” Upon review of a trial
court's summary denial of postconviction relief without
an evidentiary hearing, we must accept all allegations in
the motion as true to the extent they are not conclusively
rebutted by the record.
(Citations and footnote omitted.) Furthermore, a defendant
is not entitled to an evidentiary hearing if the postconviction
motion is legally insufficient on its face. See Freeman v. State,
761 So.2d 1055, 1061 (Fla.2000); Peede v. State, 748 So.2d
253, 257 (Fla.1999).
In this case, the trial court rejected Sweet's claim that Adams
was ineffective for failing to conduct an adequate pretrial
investigation and preparation of the case, explaining:
The defendant's first claim under this ground is that
counsel allegedly failed to conduct an adequate pre-trial
investigation and preparation of the defendant's case. As
the defendant acknowledges, the defendant was initially
represented by the Public Defender's Office, and his
trial counsel was not appointed until five months after
the defendant's arrest, only one month prior to when
the speedy trial period would have expired. Counsel
sought and was granted two continuances of several
months in duration for investigative purposes, and two
continuances of a few weeks in duration for health reasons.
When counsel attempted to obtain yet another, this Court
denied that request. The defendant makes the conclusory
allegations that his attorney's preparation was inadequate
due to counsel's health problems, and due to a break
down in communications between he and his attorney.
The defendant cites to a statement he made in court as
support for his allegation that there was a break down in
communications. In point of fact, the defendant's statement
clearly shows that the defendant was pushing counsel
bring the case to trial, and was unhappy that counsel was
not doing so, which is diametrically opposed to counsel
being able to take the time to adequately prepare for trial.
Further, this Court denied counsel's additional requests
for more continuances. This Court finds that this claim
is, at best, facially insufficient. The defendant also makes
the conclusory allegations that counsel “failed to conduct

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

an adequate voir dire; to object to the introduction of
inflammatory and improper evidence; and failed to present
adequate argument to the jury.” The defendant merely cites
to the record on appeal in support of these allegations. This
Court finds these allegations to be facially insufficient.
Moreover, with regard to Sweet's assertion that Adams
rendered ineffective assistance in failing to impeach the
State's witnesses, the trial court made the following
conclusion:
The defendant's third claim under this ground is that
counsel allegedly failed to properly cross-examine Marcine
Cofer and Solomon Hansbury at trial (Hansbury testified
at trial regarding the defendant's confession to him). The
defendant contends that counsel should have attempted to
impeach Cofer's identification of him through evidence of
her drug usage. The defendant acknowledges that counsel
was restrained in his efforts to do this through a pretrial order of this Court. The trial transcripts rebut this
claim, in that the jury did hear evidence that Cofer sold
drugs, used drugs, and that she had drugs in her system on
the night of the murder. *870 Moreover, the defendant
fails to alleged why the jury would disbelieve Cofer's
positive identification of the defendant in the face of such
corroborating evidence as the positive identification of the
defendant by Sharon Bryant, the defendant's possession
of the jewelry he had stolen from Cofer during the prior
robbery, and the testimony of the defendant's confession
to both Solomon Hansbury and Manuela Roberts. As
for Solomon Hansbury, the trial transcripts show that
counsel did extensively cross-examine Hansbury and the
defendant fails to allege what additional cross-examination
counsel should have performed. As part of this claim, the
defendant presented the recanted testimony of Hansbury at
the evidentiary hearing. However, Hansbury admitted that
he is now serving a life sentence without the possibility of
parole, that snitches are not highly regarded in prison, and
that the inmates consider it an admirable thing to testify on
behalf of another inmate. Hansbury's trial testimony was
consistent with the other evidence in this case. This Court
finds Hansbury's current testimony that he lied at trial to
be incredible. This Court finds that there is no reasonable
probability that any of the claims raised under this ground
would probably have resulted in a different outcome at trial.
Williamson v. Dugger, 651 So.2d 84 (Fla.1994); Kennedy
v. State, 547 So.2d 912 (Fla.1989).
We agree with the trial court and conclude that these claims
are either legally insufficient or conclusively refuted by the
record. Also, to the extent that Sweet did introduce evidence

at the evidentiary hearing regarding Hansbury, the trial court's
factual findings are supported by the record.
[16]
Sweet's second subclaim is that the trial court
should have considered the additional examples of Adams'
ineffectiveness and the State's alleged misconduct in
conjunction with his claim that Adams failed to properly
investigate other suspects, and that the trial court erred
in denying a hearing on these claims. However, because
on appeal Sweet simply recites these claims from his
postconviction motion in a sentence or two, without
elaboration or explanation, we conclude that these instances
of alleged ineffectiveness are not preserved for appellate
review. See Shere v. State, 742 So.2d 215, 217 n. 6 (Fla.1999);
Duest v. Dugger, 555 So.2d 849, 851-52 (Fla.1990).
[17] In Sweet's third subclaim, he asserts that the trial
court made various errors throughout his trial, and that he
was entitled to an evidentiary hearing on this claim. First,
Sweet contends that despite the presentation of evidence
supporting several mitigators, the trial court found no
statutory and only one nonstatutory mitigating circumstance
(lack of parental guidance). Specifically, Sweet contends
that he presented the following nonstatutory mitigation in
this case: (1) organic brain damage; (2) broken home; (3)
difficult and impoverished background; (4) potential for
rehabilitation; (5) positive traits; (6) drug abuse problems;
(7) alcohol abuse; (8) potential to contribute to society; (9)
acceptable behavior at trial; (10) emotional disturbance or
instability; (11) personality change from drugs; and (12)
mother was an alcoholic. Moreover, Sweet contends that
Adams rendered ineffective assistance in failing to effectively
use this evidence to argue for a life sentence.
However, we agree with the trial court's conclusion with
regard to this claim:
This Court finds this claim to be procedurally barred,
in that it could and should have been raised in his
direct appeal. Additionally, this Court finds that the
evidence presented at the hearing failed to establish his
proposed mitigators *871 of “organic brain damage,”
“potential for rehabilitation,” “positive traits,” “drug
abuse problem,” “alcohol problem,” “could contribute
to society,” “emotional disturbance or instability,” and
“personality change from drugs.” The remainder of the
proposed mitigators were presented at trial through the
testimony of the defendant's sister. As the defendant's
quotation from this Court's sentencing order demonstrates,
this Court did take into account those factors which resulted

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

in the defendant having a disadvantaged childhood. As
the quotation also notes, however, those disadvantages
were largely offset by numerous positive influences which
would have allowed the defendant to overcome his
disadvantages, just as his sister Deonne did. Moreover,
had the jury been presented with additional evidence in
regard to the defendant's proposed mitigators, the State
would have been able to bring out a wealth of evidence
of the defendant's anti-social personality. Accordingly, this
Court finds that there is no reasonable probability that the
jury would have reached a different sentencing decision
had they been presented with additional evidence by both
parties.
(Citations omitted.)
Second, Sweet contends that he was denied a right to
a fair sentencing hearing because the jury was instructed
on unconstitutionally vague aggravators. However, this

argument appears to be a repeat of his ineffectiveness claim
discussed above, and for the reasons already discussed, was
properly denied.
Accordingly, we affirm the denial of postconviction relief.
It is so ordered.

WELLS, C.J., and SHAW, HARDING, PARIENTE, LEWIS,
and QUINCE, JJ., concur.
ANSTEAD, J., concurs in result only.
All Citations
810 So.2d 854, 27 Fla. L. Weekly S113

Footnotes

1

2
3
4

These aggravators included: (1) Sweet had previously been convicted of several violent felonies, including armed robbery,
possession of a firearm by a convicted felon, riot, resisting arrest with violence, and the contemporaneous attempted
murders and burglary; (2) the murder was committed to avoid arrest; (3) the murder was committed during a burglary;
and (4) the murder was cold, calculated, and premeditated. See id.
The trial court gave this nonstatutory mitigator “slight weight.” Id.
The United States Supreme Court denied certiorari. See Sweet v. Florida, 510 U.S. 1170, 114 S.Ct. 1206, 127 L.Ed.2d
553 (1994).
These claims included: (1) Sweet was denied access to public records; (2) the one-year time limitation for filing a rule 3.851
motion for postconviction relief violates Sweet's due process and equal protection rights; (3) the “felony murder” statutory
aggravating circumstance constitutes an unconstitutional “automatic statutory aggravating circumstance”; (4) the “avoid
arrest” statutory aggravator was inapplicable in this case and the jury was erroneously instructed regarding this aggravator
because the trial court improperly failed to further instruct the jury that the aggravator can only be found where it is the
“dominant or only” motive for the defendant's commission of the murder; (5) the trial court's jury instruction on the “cold,
calculated, and premeditated” aggravator was erroneous because it failed to instruct the jury that this aggravator required
“heightened premeditation” and the evidence failed to establish the necessary heightened premeditation necessary to
support this aggravator; (6) the Jacksonville Sheriff's Office destroyed all of the evidence in this case, depriving Sweet
of his right to conduct an independent analysis of this evidence using his own experts; (7) ineffective assistance during
the guilt phase by: (a) failing to conduct an adequate pretrial investigation and preparation of Sweet's case; (b) failing
to investigate other possible sources who would have had a motive to kill Marcine Cofer; and (c) failing to properly
cross-examine Marcine Cofer and Solomon Hansbury; (8) ineffective assistance by failing to investigate and prepare
available mitigation evidence regarding Sweet's background; (9) Sweet was denied his right to a fair trial as a result
of his jury being subjected to improper influences; (10) the jury was given inadequate instructions on the “prior violent
felony,” “great risk,” “avoiding arrest,” and “cold, calculated, and premeditated” aggravators; (11) Rule Regulating the
Florida Bar 4-3.5(d)(4), which prohibits attorneys from interviewing jurors, caused his postconviction counsel to render
ineffective assistance of counsel; (12) Sweet is innocent of first-degree murder and innocent of the death penalty; (13) the
record fails to show his presence or his counsel's presence at five sidebar conferences and counsel rendered ineffective
assistance by failing to object; (14) improper prosecutorial comments during the penalty phase in arguing that the jury
should not be sympathetic towards Sweet and ineffective assistance in failing to object to this comment and in failing to
request a “mercy instruction”; (15) alleged omissions in the record on appeal deprived him of meaningful appellate and
postconviction review and trial counsel rendered ineffective assistance in failing to ensure a complete record; (16) the trial

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Sweet v. State, 810 So.2d 854 (2002)
27 Fla. L. Weekly S113

5
6

7

court's failure to ensure that Sweet had a complete record on appeal deprived him of a proper direct appeal; (17) Sweet
received a fundamentally unfair trial due to the sheer number and types of errors committed; (18) the penalty phase jury
instructions improperly shifted the burden to Sweet to show that death was not the appropriate sentence for the jury to
recommend; (19) the State's misleading evidence and improper argument deprived Sweet of a fair trial; (20) Sweet's
contemporaneous felonies were improperly used to support the prior violent felony aggravator; (21) the State failed to
prove that Sweet “knowingly” created a great risk of causing the death of other persons given that his mental state at the
time of the murder prevented him from knowing this fact; (22) the trial court improperly used a prior possession of a firearm
by a convicted felon conviction as a statutory aggravator because the conviction was unconstitutionally obtained; (23)
Florida's death penalty statute is unconstitutional on its face and as applied; (24) the trial court erred in failing to consider
nonstatutory mitigating circumstances; (25) the State's introduction of and argument regarding nonstatutory aggravators
deprived Sweet of a fair sentencing recommendation; (26) the State's closing argument and the jury instructions during
the penalty phase improperly diminished the jury's sense of responsibility in the sentencing process; (27) trial counsel
failed to provide the two court-appointed mental health examiners with sufficient background information to allow them to
adequately evaluate Sweet's competency to stand trial; and (28) the mental health officials that examined Sweet failed
to render adequate mental health assistance.
Huff v. State, 622 So.2d 982 (Fla.1993).
These issues are: (1) whether counsel was ineffective during the guilt phase for failing to investigate and present evidence
of other suspects; (2) whether counsel was ineffective during the penalty phase; (3) whether the trial court erred in failing
to consider the cumulative effect of the newly discovered evidence concerning Sweet's innocence with the evidence
that was not presented due to trial counsel's ineffectiveness; (4) whether counsel was ineffective regarding Sweet's
competency evaluation by a mental health expert; (5) whether the trial court erred in summarily denying a hearing on
Sweet's claims related to trial counsel's ineffectiveness and the State's misconduct that must be considered for their
cumulative effect on the outcome of the guilt and penalty phases; and (6) whether the record on appeal is so incomplete
that Sweet cannot meaningfully raise claims in this appeal. We conclude that Sweet's sixth claim, that the transcript in
this case is missing pages 1594-95 and page 1601, and as a result, he is “being denied his right to appeal because this
Court's review cannot be constitutionally complete,” is without merit because the State correctly explains that the record
of the evidentiary hearing in this case is complete.
This testimony is somewhat contradicted by Deonne's testimony at the evidentiary hearing. She stated that Adams spoke
to her on the phone several times, and that she went to his office once. She stated that Adams spoke to her more like
a friend, telling her about his girlfriends and other unrelated matters. She also claimed that Adams never told her that
he tried to get in touch with Sweet's mother during the trial. Nevertheless, the trial court must evaluate the credibility
of any witnesses, and we are obligated to give deference to the trial court's factual findings. See Porter v. State, 788
So.2d 917, 923 (Fla.2001).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

WILLIAM EARL SWEET,
PETITIONER,
VS.
STATE OF FLORIDA,
RESPONDENT

Appendix F. The opinion of the Supreme Court of Florida affirming the denial of
postconviction relief, reported at Sweet v. State, 248 So. 3d 1060 (Fla. 2018).

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

perpetrator of crimes, was arrested five days
before crimes at issue occurred, was admissible
in postconviction relief proceedings following
convictions for first degree murder, attempted
first degree murder, and burglary; trial court's
determination of prisoner's credibility did not
rest on admission of arrest record, as he did
not come forward for more than 24 years after
offenses, he was seventh-time convicted felon
serving life sentence, he had previously specified
that he did not remember anything from night
pertaining to crimes, and his account of what he
observed was inconsistent.

248 So.3d 1060
Supreme Court of Florida.

William Earl SWEET, Appellant,
v.
STATE of Florida, Appellee.
No. SC17–1987
|
[May 24, 2018]
Synopsis
Background: Following affirmance of his convictions for
first degree murder, three counts of attempted first degree
murder, and burglary and sentence of death on direct appeal,
624 So.2d 1138, and affirmance of denials or dismissals
of his petitions for postconviction relief and for writs of
habeas corpus, 810 So.2d 854, 822 So.2d 1269, 467 F.3d
1311, 234 So.3d 646, defendant filed sixth successive motion
for postconviction relief. The Circuit Court, Duval County,
Angela Cox, J., No. 161991cf002899axxxma, denied motion.
Defendant appealed.

Holdings: The Supreme Court held that:

1 Cases that cite this headnote
[2]

[3]

[3] evidence supported finding that testimony by prisoner was
not credible.

[1]

[4]

Criminal Law

Admissibility

Arrest record showing that prisoner, whose
affidavit stated that capital defendant was not

Criminal Law

Post-conviction relief

When compared with the Supreme Court
conducting a review, postconviction courts hold
a superior vantage point with respect to questions
of fact, evidentiary weight, and observations
of the demeanor and credibility of witnesses;
unlike the Supreme Court, the trial judge is there
and sees and hears the witnesses presenting the
conflicting testimony, while the cold record on
appeal does not give appellate judges that type of
perspective.

[2] evidence supported finding that shooting victim's
recantation testimony was not credible; and

West Headnotes (9)

Post-conviction relief

When reviewing a trial court's determination
relating to the credibility of a recantation, the
Supreme Court is highly deferential to the
trial court and will affirm the lower court's
determination so long as it is supported by
competent, substantial evidence.

[1] arrest record showing that prisoner, whose affidavit stated
that capital defendant was not perpetrator of crimes, was
arrested five days before crimes at issue occurred, was
admissible;

Affirmed.

Criminal Law

Criminal Law
recantation

Perjured testimony and

Evidence supported finding that shooting
victim's recantation testimony, during which
she allegedly came forward and suggested
that she might have misidentified defendant
to police and at trial, was not credible
during postconviction proceedings following
convictions for first degree murder, attempted
first degree murder, and burglary; testimony

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

regarding blurred present memory as to shooter
came 26 years after trial, testimony at evidentiary
hearing could not be considered true recantation,
as victim testified on cross-examination by State
that trial testimony was truthful, victim testified
that she was contacted by defendant's sister about
recanting trial testimony, and victim testified
that she smoked approximately fifteen marijuana
blunts a day and had consumed five blunts prior
to testifying at hearing.

[8]

Criminal Law

Recantation

If a postconviction court is not satisfied that the
recanted testimony is true, it has a duty to deny
the defendant a new trial.
1 Cases that cite this headnote
[6]

Criminal Law
recantation

Perjured testimony and

Evidence supported finding that testimony by
prisoner, who stated that capital defendant
was not perpetrator of crimes, was not
credible in postconviction proceedings following
convictions for first degree murder, attempted
first degree murder, and burglary; prisoner did
not come forward for more than 24 years after
offenses, prisoner was seventh-time convicted
felon serving life sentence, after claiming his
guilty conscience in knowing that an innocent
man was going to be executed made him
come forward, he had abrupt change of heart
and claimed that his affidavit was invalid and
inaccurate, and, at evidentiary hearing, prisoner's
inconsistency about what he observed continued.

[7]

Criminal Law

Post-conviction relief

When the trial court rules on a newly discovered
evidence claim after an evidentiary hearing, the
Supreme Court reviews the trial court's findings
on questions of fact, the credibility of witnesses,
and the weight of the evidence for competent,
substantial evidence.
1 Cases that cite this headnote

Review De Novo

As with rulings on other postconviction claims,
the Supreme Court reviews the trial court's
application of the law to the facts on a claim of
newly discovered evidence after an evidentiary
hearing de novo.
1 Cases that cite this headnote
[9]

[5]

Criminal Law

Criminal Law

Newly discovered evidence

Trial court correctly applied standard for newly
discovered evidence during postconviction
proceedings following convictions for first
degree murder, attempted first degree murder,
and burglary; court considered cumulative effect
of all evidence that could have been presented
at new trial, and, after noting its finding
that testimony by recanting witnesses was not
credible, court concluded that defendant's newly
discovered evidence would not have produced
reasonable probability of different outcome at
new trial.
1 Cases that cite this headnote

*1061 An Appeal from the Circuit Court in and
for Duval County, Angela Cox, Judge—Case No.
161991CF002899AXXXMA
Attorneys and Law Firms
James Vincent Viggiano, Jr., Capital Collateral Regional
Counsel, Mark S. Gruber, Julie A. Morley, and Margaret
S. Russell, Assistant Capital Collateral Regional Counsel,
Middle Region, Temple Terrace, Florida, for Appellant
Pamela Jo Bondi, Attorney General, and Lisa A. Hopkins,
Assistant Attorney General, Tallahassee, Florida, for
Appellee
Opinion
PER CURIAM.
William Earl Sweet appeals the postconviction court's order
denying his sixth successive motion for postconviction relief
based on a claim of newly discovered evidence after an

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

evidentiary hearing.1 For the reasons that follow, we affirm
the postconviction court's order denying Sweet relief.

FACTUAL BACKGROUND
In 1991, a jury convicted Sweet of one count of first-degree
murder, three counts of attempted first-degree murder, and
one count of burglary. Sweet v. State (Sweet I ), 624 So.2d
1138, 1139 (Fla. 1993). On direct appeal, this Court explained
the details underlying Sweet's convictions:
On June 6, 1990, Marcine Cofer was attacked in her
apartment and beaten *1062 and robbed by three men.
She could identify two of the men by their street names.
On June 26, 1990, she was taken by Detective Robinson to
the police station to look at pictures to attempt to identify
the third assailant. When Robinson dropped Cofer off at
her apartment, William Sweet was standing nearby and
saw her leave the detective. Unknown to Cofer, Sweet had
previously implicated himself in the robbery by telling a
friend that he had committed the robbery or that he had
ordered it done. Cofer asked her next-door neighbor, Mattie
Bryant, to allow the neighbor's daughters, Felicia, thirteen,
and Sharon, twelve, to stay with Cofer in her apartment that
night. Mattie agreed, and the children went over to Cofer's
apartment around 8 p.m.
At approximately 1 a.m. that evening, Sharon was watching
television in the living room of Cofer's apartment when she
heard a loud kick on the apartment door. She reported this
to Cofer, who was sleeping in the bedroom, but because
the person had apparently left, Cofer told Sharon not to
worry about it and went back to sleep. Shortly thereafter,
Sharon saw someone pulling on the living room screen.
She awakened Cofer. The two then went to the door of
the apartment, looked out the peephole, and saw Sweet
standing outside. Sweet called Cofer by name and ordered
her to open the door.
At Cofer's direction, Felicia pounded on the bathroom wall
to get Mattie's attention in the apartment next door, and a
few minutes later Mattie came over. The four then lined up
at the door, with Cofer standing in the back of the group.
When they opened the door to leave, Sweet got his foot
in the door and forced his way into the apartment. Sweet's
face was partially covered by a pair of pants. He first shot
Cofer and then shot the other three people, killing Felicia.
Six shots were fired. Cofer, Mattie, and Sharon were shot

in the thigh, ankle and thigh, and buttock, respectively, and
Felicia was shot in the hand and in the abdomen.
Id.
Following the jury's recommendation for death by a vote
of ten to two, the trial court sentenced Sweet to death. Id.
In imposing the death sentence, the trial court found the
following aggravating factors:
(1) Sweet had previously been convicted of several violent
felonies, including armed robbery, possession of a firearm
by a convicted felon, riot, resisting arrest with violence, and
the contemporaneous attempted murders and burglary; (2)
the murder was committed to avoid arrest; (3) the murder
was committed during a burglary; and (4) the murder was
cold, calculated, and premeditated.
Id. at 1142. “The court found no statutory mitigating
circumstances, but found as nonstatutory mitigation that
Sweet lacked true parental guidance as a teenager. This
mitigation was given slight weight.” Id.
On direct appeal, this Court affirmed Sweet's convictions
and sentence of death. Id. at 1143. Sweet's sentence of death
became final in 1994. Sweet v. Florida, 510 U.S. 1170, 114
S.Ct. 1206, 127 L.Ed.2d 553 (1994).

Sweet's Initial Postconviction Motion
In 1995, Sweet filed his initial motion for postconviction
relief, raising twenty-eight claims. Sweet v. State (Sweet II
), 810 So.2d 854, 857 n.4 (Fla. 2002).2 The postconviction
*1063 court granted an evidentiary hearing on four of
Sweet's claims. Id. at 858.
At the evidentiary hearing, Sweet presented the testimony of
Anthony McNish, a witness who was subpoenaed to testify
at Sweet's trial, but did not appear. Id. at 861. McNish's
testimony at the evidentiary hearing was summarized by this
Court as follows:
*1064 McNish stated that the three men at Cofer's door
walked differently than Sweet, and that the three men each
had a different skin complexion and physical build than
Sweet....
The State established on cross-examination that McNish
had been convicted of seven felonies, including crimes
involving dishonesty. Further, although he stated at a
pretrial deposition that he could not see any of the three

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

mens' faces at Cofer's door, that it was dark, and that he had
bad eyesight, he explained at the evidentiary hearing that,
after thinking about it, he had a good idea of what the three
men looked like. However, he repeated at the evidentiary
hearing that he had bad eyesight and never got a good look
at the three men. Moreover, McNish never saw any of the
men wearing a mask, and he did not actually see the men
knock on the door. Finally, McNish stated at the evidentiary
hearing that he could identify one of the men that was at
Cofer's door now, but he refused to reveal the name of the
person. He did state that the man is not Sweet.
Id. at 861–62. Also at the evidentiary hearing on his initial
postconviction motion, Sweet presented the testimony of
Solomon Hansbury, a witness at Sweet's trial who testified
“that Sweet confessed to the murder while they were in jail
together.” Id. at 867. At the evidentiary hearing, Hansbury
recanted his testimony. Id.
After the evidentiary hearing, the postconviction court
denied relief. Id. at 858. As to Sweet's claim regarding
trial counsel's failure to secure McNish's appearance at
trial, the postconviction court found that Sweet “failed to
demonstrate either deficient performance or prejudice.” Id.
at 862. The postconviction court explained that “given
McNish's inconsistent testimony at the evidentiary hearing
and complete evasiveness regarding a critical piece of newly
divulged evidence—some eight years after the fact, the
jury would find McNish's testimony to be as incredible
as this Court found it to be.” Id. Additionally, as to
Hansbury's recantation, the postconviction court “expressly
rejected Hansbury's testimony at the evidentiary hearing ... as
‘incredible.’ ” Id. at 867.
Sweet appealed the denial of postconviction relief to
this Court. As to McNish, this Court agreed with the
postconviction court that “Sweet demonstrated neither
deficient performance nor prejudice with regard to McNish,”
and concluded that none of Sweet's claims of ineffective
assistance of counsel at the guilt phase “refute[d] the
overwhelming evidence of guilt presented by the State.” Id.
at 862. This Court, likewise, rejected Sweet's cumulative
evidence claim concerning Hansbury's recantation after
“[c]onsidering all of the testimony presented at the
evidentiary hearing.” Id. at 867. This Court denied Sweet's
other claims and unanimously affirmed the postconviction
court's denial of relief. Id. at 871.3

*1065
Sweet's Sixth
Postconviction Relief

Successive

Motion

for

On January 25, 2017, Sweet filed his sixth successive
motion for postconviction relief based on newly discovered
evidence.4 The newly discovered evidence was an affidavit
executed by Florida state prisoner Eric L. Wilridge, who
attested, in part:
On June 26/27, 1990 around 1:30am I was at the
laundromat on 4th Market. I was looking down the alley
and saw 3 males standing at Dales (Spot). I got on my
bike and rode around the corner towards 3rd and market.
I ran into Jesse and he said that he relieved [sic] that
somebody is gonna rob Dale (Marcene) cause a guy with a
ski mask made him knock on their door. About 10 minutes
later I rode past Dales (spot) down 3rd and saw a guy
standing in the doorway shooting. I couldn't see who it was
because he was wearing a ski mask (black/gray). I know
it wasn't (William E. Sweet) because of his build, height,
and complexion (shorter and lighter). The next morning, I
heard a little girl got killed. I didn't come forward earlier
because I didn't want to get involved, but an innocent man
is on death row. This is what happened.
Sweet's motion also asserted that Cofer, who testified against
Sweet at trial, had since come forward and suggested that she
may have misidentified Sweet to the police and at trial.5 Sweet
argued that, because “[i]dentification has always been a key
issue in this case,” an evidentiary hearing was warranted.
The postconviction court granted Sweet an evidentiary
hearing “to develop the factual allegations of [Sweet's] claim”
regarding Wilridge and “to present additional evidence to
support [Sweet's] claim that Ms. Cofer recanted her testimony
for the limited purpose of demonstrating any cumulative
effect the recantation may have” on Sweet's claim. After the
one-day evidentiary hearing, the postconviction court denied
relief.
Sweet now appeals the postconviction court's denial of
relief, claiming that the postconviction court (1) erred in
admitting an arrest record, which indicated that Wilridge was
arrested five days before Sweet's offenses; (2) erred in its
credibility determinations regarding the testimony of Cofer
and Wilridge; and (3) misapplied the Jones6 standard for
newly discovered evidence. For the reasons explained below,
we affirm the postconviction court's order denying relief.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

I. Admission of the Arrest Record

1. Cofer

[1] Sweet claims that the postconviction court erred in
admitting an arrest record that was introduced by the State,
which showed that Wilridge was arrested five days before
the crimes at issue in this case occurred. The State sought
to admit the arrest record to show that Wilridge was likely
incarcerated at the time of the murder and thus could not
have been an eyewitness to the crime. Sweet argues that the
arrest record should not have been admitted because it was
not timely disclosed to the defense and was not relevant, as
it did not conclusively establish that *1066 Wilridge was in
custody at the time the crimes at issue occurred.

[4] [5] Sweet claims that the postconviction court erred in
finding that Cofer's recantation testimony was not credible.
With regard to recanting testimony, this Court has explained:

We conclude that the postconviction court did not err in
admitting the arrest record. Even if we were to conclude
that it was error to admit the record, however, any error
would be harmless beyond a reasonable doubt. See Deparvine
v. State, 995 So.2d 351, 372 (Fla. 2008) (holding that
erroneously admitted evidence was harmless where there was
“no reasonable possibility” that the evidence contributed to
the defendant's convictions). The trial court's determination
of Wilridge's credibility did not rest on the admission of the
arrest record, as we more fully explain below.
Accordingly, Sweet is not entitled to relief on this claim.

II. Credibility Determinations
[2]
[3] “When reviewing a trial court's determination
relating to the credibility of a recantation, this Court is
‘highly deferential’ to the trial court and will affirm the lower
court's determination so long as it is supported by competent,
substantial evidence.” Lambrix v. State, 39 So.3d 260, 272
(Fla. 2010) (quoting Heath v. State, 3 So.3d 1017, 1024 (Fla.
2009) ). “Postconviction courts hold a superior vantage point
with respect to questions of fact, evidentiary weight, and
observations of the demeanor and credibility of witnesses.”
Ibar v. State, 190 So.3d 1012, 1018 (Fla. 2016). “Unlike
this Court, ‘the trial judge is there and ... see[s] and hear[s]
the witnesses presenting the conflicting testimony. The cold
record on appeal does not give appellate judges that type of
perspective.’ ” Spann v. State, 91 So.3d 812, 816 (Fla. 2012)
(quoting State v. Spaziano, 692 So.2d 174, 178 (Fla. 1997) ).

Recantation by a witness called on behalf of the
prosecution does not necessarily entitle a defendant to a
new trial. In determining whether a new trial is warranted
due to recantation of a witness's testimony, a trial judge is
to examine all the circumstances of the case, including the
testimony of the witnesses submitted on the motion for the
new trial. “Moreover, recanting testimony is exceedingly
unreliable, and it is the duty of the court to deny a new
trial where it is not satisfied that such testimony is true.
Especially is this true where the recantation involves a
confession of perjury.” Only when it appears that, on a new
trial, the witness's testimony will change to such an extent
as to render probable a different verdict will a new trial be
granted.
Consalvo v. State, 937 So.2d 555, 561 (Fla. 2006) (citations
omitted) (quoting Armstrong v. State, 642 So.2d 730, 735 (Fla.
1994) ). If a postconviction court “is not satisfied that the
recanted testimony is true, it has a duty to deny the defendant
a new trial.” Heath, 3 So.3d at 1024; see also Archer v.
State, 934 So.2d 1187, 1199 (Fla. 2006) (affirming denial
of postconviction relief “because a recantation which is not
credible would not produce an acquittal or a life sentence on
retrial”).
In this case, Cofer's testimony regarding her blurred present
memory as to the shooter came twenty-six years after Sweet's
trial. Additionally, and importantly, Cofer's testimony at the
evidentiary hearing cannot be considered a true recantation, as
she testified at the evidentiary hearing on cross-examination
by the State that her trial testimony was truthful. However,
as the postconviction court explained in its order denying
relief, Cofer testified at the evidentiary hearing that “she was
*1067 now unsure whether [Sweet] was the person who shot
her.” The postconviction court further explained:
Ms. Cofer claimed that she had been unsure about [Sweet's]
guilt for some time, but did not feel it was confirmed until
her sister told her in 2013 that [Sweet] was innocent. Ms.
Cofer also testified that shortly after speaking with her
sister, she was contacted by [Sweet's] sister about recanting
her trial testimony. Despite now testifying that [Sweet] was
not the true perpetrator, she claimed that what she testified
to at the time of the trial was true. Ms. Cofer did not provide

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

any specific details to explain how she went from being
able to concretely identify [Sweet] as the perpetrator to now
questioning her identification.
While Ms. Cofer's testimony was credible at trial, her
testimony at the Evidentiary Hearing was not. Ms. Cofer
testified that her memory “goes in and out” and is “blurry.”
She also testified that she smokes approximately fifteen
marijuana blunts a day and that she had consumed five
marijuana blunts prior to testifying at the Evidentiary
Hearing. Ms. Cofer's demeanor at the Evidentiary Hearing
suggested that she was on friendly terms with [Sweet]
and had a vested interest in seeing [Sweet's] conviction
overturned despite his culpability. Based on Ms. Cofer's
testimony it is clear to the Court that with the passage of
time and Ms. Cofer's drug use, her memory of the offenses
has faded. Her fading memory was then influenced by
statements made to her by her sister and [Sweet's] sister that
[Sweet] was not the true perpetrator.
We conclude that this finding is supported by competent,
substantial evidence.
Accordingly, Sweet is not entitled to relief on this claim.

2. Wilridge
[6] Sweet next argues that the postconviction court erred
in finding that Wilridge was not credible. Like the delay in
Cofer's recantation, Wilridge did not come forward for more
than twenty-four years after the offenses. See Jones, 709
So.2d at 521–22 (“Where ... some of the newly discovered
evidence includes the testimony of individuals who claim
to be witnesses to events that occurred at the time of the
crime, the trial court may consider both the length of the
delay and the reason the witness failed to come forward
sooner.”). Additionally, Wilridge is a seven-time convicted
felon, who is currently serving a life sentence for which he
has been incarcerated since October 26, 1991. See Clark v.
State, 35 So.3d 880, 893 (Fla. 2010) (affirming the denial of
postconviction relief where the newly discovered evidence
came from an inmate serving multiple sentences, noting that
the inmate “would probably not serve as a credible witness at
a new trial”).
Further, as the postconviction court explained in its order
denying relief:

information was that he did not want to become involved
with law enforcement. Mr. Wilridge claimed that his guilty
conscious [sic], caused by knowing an innocent man was
going to be executed, is what made him finally come
forward. Then, a few months prior to the Evidentiary
Hearing occurring, Mr. Wilridge had an abrupt change of
heart. He wrote two letters, one to the Court and one to
the State Attorney Office for the Fourth Judicial Circuit,
in which he claimed his affidavit about [Sweet's] case was
invalid and inaccurate. Further, in the letter to the Court,
Mr. Wilridge even went so far as to specify that he did not
remember *1068 anything from that night pertaining to
[Sweet's] case.
At the Evidentiary Hearing, Mr. Wilridge's inconsistency
in what he observed concerning the offenses continued.
In his affidavit, Mr. Wilridge stated that on the night of
the offense he initially saw three men standing around
Ms. Cofer's apartment, but at the Evidentiary Hearing he
testified that while he saw three individuals, they were too
far away for him to see any identifying features, including
whether they were male or female. Mr. Wilridge also wrote
in his affidavit that he saw a man standing in the doorway
shooting into Ms. Cofer's apartment, but at the Evidentiary
Hearing he testified that he saw a man standing in the
doorway with his hand extended and did not see a gun or
shots being fired. Mr. Wilridge further testified that it was
only after riding away that he heard gunshots, which he
claimed was common to hear in the neighborhood.
We conclude that this finding is supported by competent,
substantial evidence.
Accordingly, Sweet is not entitled to relief on this claim.

III. Newly Discovered Evidence
[7] [8] [9] Lastly, Sweet claims that the postconviction
court misapplied the Jones standard for newly discovered
evidence. “When the trial court rules on a newly discovered
evidence claim after an evidentiary hearing, we review the
trial court's findings on questions of fact, the credibility of
witnesses, and the weight of the evidence for competent,
substantial evidence.” Green v. State, 975 So.2d 1090, 1100
(Fla. 2008). “As with rulings on other postconviction claims,
we review the trial court's application of the law to the facts
de novo.” Id.

Mr. Wilridge's explanation for why he waited over twentyfour years to come forward with this possibly exonerative
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

With regard to claims of newly discovered evidence, this
Court has explained:
To obtain a new trial based on newly discovered evidence, a
defendant must meet two requirements: First, the evidence
must not have been known by the trial court, the party,
or counsel at the time of trial, and it must appear that the
defendant or defense counsel could not have known of
it by the use of diligence. Second, the newly discovered
evidence must be of such nature that it would probably
produce an acquittal on retrial. See Jones v. State, 709
So.2d 512, 521 (Fla. 1998) (Jones II ). Newly discovered
evidence satisfies the second prong of this test if it
“weakens the case against [the defendant] so as to give
rise to a reasonable doubt as to his culpability.” Id. at
526 (quoting Jones v. State, 678 So.2d 309, 315 (Fla.
1996) (Jones I ) ). In determining whether the evidence
compels a new trial, the trial court must “consider all newly
discovered evidence which would be admissible,” and must
“evaluate the weight of both the newly discovered evidence
and the evidence which was introduced at the trial.” Jones
v. State, 591 So.2d 911, 916 (Fla. 1991).
Id. at 1099.
After finding that Cofer and Wilridge were not credible,
the postconviction court turned to consider the cumulative
effect of all evidence that could be presented at a new
trial. The court considered the additional evidence presented
at the evidentiary hearing on Sweet's initial postconviction

motion of McNish's testimony and Hansbury's recantation.
After noting its previous findings that neither McNish's
testimony nor Hansbury's recantation was credible, the
postconviction court concluded that “[i]n light of all the
evidence presented at the evidentiary hearing and all other
evidence available,” Wilridge's newly discovered evidence
and Cofer's recantation “would not produce a reasonable
probability of a different outcome at a new trial.” Thus, it is
clear that the postconviction *1069 court properly applied
the Jones standard to Sweet's claim.
Accordingly, Sweet is not entitled to relief on this claim.

CONCLUSION
For the reasons stated, we affirm the postconviction
court's order denying Sweet's sixth successive motion for
postconviction relief.
It is so ordered.

LABARGA, C.J., and PARIENTE, LEWIS, QUINCE,
CANADY, POLSTON, and LAWSON, JJ., concur.
All Citations
248 So.3d 1060, 43 Fla. L. Weekly S243

Footnotes

1
2

We have jurisdiction. Art. V, § 3(b)(1), Fla. Const.
Sweet's initial postconviction claims included:
(1) Sweet was denied access to public records; (2) the one-year time limitation for filing a rule 3.851 motion for
postconviction relief violate[d] Sweet's due process and equal protection rights; (3) the “felony murder” statutory
aggravating circumstance constitute[d] an unconstitutional “automatic statutory aggravating circumstance”; (4) the
“avoid arrest” statutory aggravator was inapplicable in this case and the jury was erroneously instructed regarding
this aggravator because the trial court improperly failed to further instruct the jury that the aggravator can only be
found where it is the “dominant or only” motive for the defendant's commission of the murder; (5) the trial court's jury
instruction on the “cold, calculated, and premeditated” aggravator was erroneous because it failed to instruct the jury
that this aggravator required “heightened premeditation” and the evidence failed to establish the necessary heightened
premeditation necessary to support this aggravator; (6) the Jacksonville Sheriff's Office destroyed all of the evidence
in this case, depriving Sweet of his right to conduct an independent analysis of this evidence using his own experts; (7)
ineffective assistance during the guilt phase by: (a) failing to conduct an adequate pretrial investigation and preparation
of Sweet's case; (b) failing to investigate other possible sources who would have had a motive to kill Marcine Cofer;
and (c) failing to properly cross-examine Marcine Cofer and Solomon Hansbury; (8) ineffective assistance by failing to
investigate and prepare available mitigation evidence regarding Sweet's background; (9) Sweet was denied his right to
a fair trial as a result of his jury being subjected to improper influences; (10) the jury was given inadequate instructions on
the “prior violent felony,” “great risk,” “avoiding arrest,” and “cold, calculated, and premeditated” aggravators; (11) Rule
Regulating the Florida Bar 4–3.5(d)(4), which prohibits attorneys from interviewing jurors, caused his postconviction

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Sweet v. State, 248 So.3d 1060 (2018)
43 Fla. L. Weekly S243

3

4

5
6

counsel to render ineffective assistance of counsel; (12) Sweet is innocent of first-degree murder and innocent of the
death penalty; (13) the record fail[ed] to show his presence or his counsel's presence at five sidebar conferences and
counsel rendered ineffective assistance by failing to object; (14) improper prosecutorial comments during the penalty
phase in arguing that the jury should not be sympathetic towards Sweet and ineffective assistance in failing to object to
this comment and in failing to request a “mercy instruction”; (15) alleged omissions in the record on appeal deprived him
of meaningful appellate and postconviction review and trial counsel rendered ineffective assistance in failing to ensure
a complete record; (16) the trial court's failure to ensure that Sweet had a complete record on appeal deprived him of
a proper direct appeal; (17) Sweet received a fundamentally unfair trial due to the sheer number and types of errors
committed; (18) the penalty phase jury instructions improperly shifted the burden to Sweet to show that death was
not the appropriate sentence for the jury to recommend; (19) the State's misleading evidence and improper argument
deprived Sweet of a fair trial; (20) Sweet's contemporaneous felonies were improperly used to support the prior violent
felony aggravator; (21) the State failed to prove that Sweet “knowingly” created a great risk of causing the death of
other persons given that his mental state at the time of the murder prevented him from knowing this fact; (22) the
trial court improperly used a prior possession of a firearm by a convicted felon conviction as a statutory aggravator
because the conviction was unconstitutionally obtained; (23) Florida's death penalty statute is unconstitutional on its
face and as applied; (24) the trial court erred in failing to consider nonstatutory mitigating circumstances; (25) the State's
introduction of and argument regarding nonstatutory aggravators deprived Sweet of a fair sentencing recommendation;
(26) the State's closing argument and the jury instructions during the penalty phase improperly diminished the jury's
sense of responsibility in the sentencing process; (27) trial counsel failed to provide the two court-appointed mental
health examiners with sufficient background information to allow them to adequately evaluate Sweet's competency to
stand trial; and (28) the mental health officials that examined Sweet failed to render adequate mental health assistance.
Id. at 857 n.4.
Sweet's subsequent petition for a writ of habeas corpus filed in this Court was also denied. Sweet v. Moore, 822 So.2d
1269 (Fla. 2002).
Sweet filed a successive motion for postconviction relief in 2003, raising a claim under Ring v. Arizona, 536 U.S. 584,
122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), which the postconviction court denied as untimely and facially insufficient. This
Court affirmed without opinion. See Sweet v. State, 900 So.2d 555 (Fla. 2004).
Sweet filed a third successive motion for postconviction relief, raising a claim under Crawford v. Washington, 541 U.S.
36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004). The postconviction court denied the claim, and this Court affirmed without
opinion. Sweet v. State, 934 So.2d 450 (Fla. 2006). Sweet's petition for a writ of habeas corpus in federal court was
dismissed as untimely. See Sweet v. Sec'y, Dep't of Corr., 467 F.3d 1311 (11th Cir. 2006). Sweet's fourth and fifth
successive motions for postconviction relief were also denied; Sweet did not appeal.
While this case was pending, Sweet filed a seventh successive motion seeking relief under Hurst v. State (Hurst ),
202 So.3d 40 (Fla. 2016), cert. denied, ––– U.S. ––––, 137 S.Ct. 2161, 198 L.Ed.2d 246 (2017). Sweet appealed the
postconviction court's denial of that motion and, upon review, this Court affirmed. Sweet v. State, 234 So.3d 646 (Fla.
2018).
In 2014, Sweet filed a successive pro se motion for postconviction relief, in which he alleged that Cofer recanted her trial
testimony and an evidentiary hearing was warranted. This motion was stricken because Sweet was represented at the
time of the filing and his then-counsel did not adopt the motion.
Jones v. State, 709 So.2d 512 (Fla. 1998).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

